<html>
<title> - H.R. 280, H.R. 646, H.R. 1594, H.R. 1618 AND H.R. 1862</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
        H.R. 280, H.R. 646, H.R. 1594, H.R. 1618 AND H.R. 1862

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 16, 2003

                               __________

                           Serial No. 108-55

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-384              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Elton Gallegly, California           Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
Wayne T. Gilchrest, Maryland         Tom Udall, New Mexico
Barbara Cubin, Wyoming               Mark Udall, Colorado
Walter B. Jones, Jr., North          Anibal Acevedo-Vila, Puerto Rico
    Carolina                         Raul M. Grijalva, Arizona
Chris Cannon, Utah                   Dennis A. Cardoza, California
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Nick J. Rahall II, West Virginia, 
Mark E. Souder, Indiana                  ex officio
Rob Bishop, Utah
Richard W. Pombo, California, ex 
    officio

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 16, 2003......................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Hobson, Hon. David, a Representative in Congress from the 
      State of Ohio..............................................     8
        Prepared statement on H.R. 280...........................    10
    Majette, Hon. Denise, a Representative in Congress from the 
      State of Georgia...........................................     6
        Prepared statement on H.R. 1618..........................     7
    Peterson, Hon. John E., a Representative in Congress from the 
      State of Pennsylvania......................................    18
        Prepared statement on H.R. 1862..........................    20
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement on H.R. 280, H.R. 646, H.R. 1594, H.R. 
          1618 and H.R. 1862.....................................     3
    Whitfield, Hon. Ed, a Representative in Congress from the 
      State of Kentucky..........................................    12
        Prepared statement on H.R. 646...........................    13

Statement of Witnesses:
    Clifton, Daniel M., Federal Affairs Manager, Americans for 
      Tax Reform, Washington, D.C................................    43
        Prepared statement on H.R. 280, H.R. 1594, H.R. 1618, and 
          H.R. 1862..............................................    44
    Hitchcock, Roxanne, Board Member, Oil Heritage Region, Inc., 
      Oil City, Pennsylvania.....................................    37
        Prepared statement on H.R. 1862..........................    39
    Jordan, Kelly, Chair, Arabia Mountain Heritage Area Alliance, 
      Atlanta, Georgia...........................................    29
        Prepared statement on H.R. 1618..........................    30
    Knight, J. Peyton, Legislative Director, American Policy 
      Center, Warrenton, Virginia................................    40
        Prepared statement on H.R. 280, H.R. 1594, H.R. 1618, and 
          H.R. 1862..............................................    42
    Lane, Amanda Wright, Commissioner, Dayton Aviation Heritage 
      Commission, Cincinnati, Ohio...............................    21
        Prepared statement on H.R. 280...........................    23
    Murray, Robert, Chairman, Board of Commissioners, Venango 
      County, Franklin, Pennsylvania.............................    35
        Prepared statement on H.R. 1862..........................    36
    Whitaker, Hon. Larry B., McLean County Judge, Calhoun, 
      Kentucky...................................................    26
        Prepared statement on H.R. 646...........................    27

Additional materials supplied:
    Boehner, Hon. John A., a Representative in Congress from the 
      State of Ohio, Statement submitted for the record on H.R. 
      280........................................................    48
    Richards, Hon. Vargrave A., Lieutenant Governor, The United 
      States Virgin Islands, Statement submitted for the record 
      on H.R. 1594...............................................     5


  LEGISLATIVE HEARING ON H.R. 280, TO ESTABLISH THE NATIONAL AVIATION 
    HERITAGE AREA, AND FOR OTHER PURPOSES; H.R. 646, TO EXPAND THE 
 BOUNDARIES OF THE FORT DONELSON NATIONAL BATTLEFIELD TO AUTHORIZE THE 
 ACQUISITION AND INTERPRETATION OF LANDS ASSOCIATED WITH THE CAMPAIGN 
    THAT RESULTED IN THE CAPTURE OF THE FORT IN 1862, AND FOR OTHER 
PURPOSES; H.R. 1594, TO DIRECT THE SECRETARY OF THE INTERIOR TO CONDUCT 
  A STUDY OF THE SUITABILITY AND FEASIBILITY OF ESTABLISHING THE ST. 
    CROIX NATIONAL HERITAGE AREA IN ST. CROIX, UNITED STATES VIRGIN 
  ISLANDS, AND FOR OTHER PURPOSES; H.R. 1618, TO ESTABLISH THE ARABIA 
MOUNTAIN NATIONAL HERITAGE AREA IN THE STATE OF GEORGIA, AND FOR OTHER 
PURPOSES; AND H.R. 1862, TO ESTABLISH THE OIL REGION NATIONAL HERITAGE 
                                 AREA.

                              ----------                              


                      Tuesday, September 16, 2003

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 1334, Longworth House Office Building, Hon. George P. 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Peterson, Souder, 
Christensen, Tom Udall, Grijalva and Bordallo.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The Subcommittee on 
National Parks, Recreation and Public Lands will begin its 
legislative hearing on a number of bills: H.R. 280, H.R. 646, 
H.R. 1594, H.R. 1618, and H.R. 1862.
    The first bill that is being considered today, H.R. 280, 
was introduced by Congressman David Hobson of Ohio, which would 
establish the National Aviation Heritage Area in southwest 
Ohio.
    Our second bill, H.R. 646, introduced by Congressman Ed 
Whitfield of Kentucky, would expand the boundaries of the Fort 
Donelson National Battlefield to authorize the acquisition and 
interpretation of lands associated with the campaign that 
resulted in the capture of the fort in 1862.
    The third bill is H.R. 1594, introduced by the Ranking 
Member of the Subcommittee, Mrs. Donna Christensen of the 
Virgin Islands, which would authorize the Secretary of the 
Interior to conduct a study on the feasibility and suitability 
of establishing the St. Croix National Heritage Area in St. 
Croix, United States Virgin Islands.
    The fourth bill, H.R. 1618, introduced by Congresswoman 
Denise Majette of Georgia, would establish the Arabia Mountain 
National Heritage Area in the State of Georgia.
    Our final bill for consideration, H.R. 1862, introduced by 
our colleague, John Peterson of Pennsylvania, would establish 
the Oil Region National Heritage Area in the State of 
Pennsylvania.
    I would like to note that this is the Subcommittee's first 
hearing of the 108th Congress on legislation either authorizing 
the study of a potential National Heritage Area or establishing 
a National Heritage Area. An increasing number of communities 
seeking National Heritage Area designations, along with 
concerns raised by many in the private property rights 
community, warrant careful discussion of the purpose of 
establishing these areas.
    I note that Chairman Pombo, who is a strong advocate of 
private property rights, shares my caution, so I look forward 
to a lively discussion today and hope that we may look forward 
to a better understanding about how National Heritage Area 
programs affect the notion of local control in communities 
throughout the country and ensures the involvement of property 
owners who would be affected by these potential designations.
    Before I turn it over to Mrs. Christensen for an opening 
statement, I would like to announce that we have an unusual 
situation here today, in that the Administration will not be 
testifying on the legislation before the Subcommittee.
    Though invited, the National Park Service could not prepare 
its testimony in the time provided by the Subcommittee. 
Nevertheless, the National Park Service will come before the 
Committee at a later date to present their testimony.
    At this time, too, I would like to ask unanimous consent 
that the Honorable Denise Majette, Dave Hobson and Ed Whitfield 
be allowed to join us on the dais after their opening 
statements. There being no objection, so ordered.
    I would now like to turn this over to Mrs. Christensen for 
her opening statement.
    [The prepared statement of Mr. Radanovich follows:]

   Statement of The Honorable George Radanovich, a Representative in 
                 Congress from the State of California

    Good afternoon. Today, the Subcommittee on National Parks, 
Recreation and Public Lands will receive testimony on five bills--H.R. 
280, H.R. 646, H.R. 1594, H.R. 1618 and H.R. 1862.
    The first bill, H.R. 280, introduced by Congressman David Hobson of 
Ohio, would establish the National Aviation Heritage Area in southwest 
Ohio.
    Our second bill, H.R. 646, introduced by Congressman Ed Whitfield 
of Kentucky, would expand the boundaries of the Fort Donelson National 
Battlefield to authorize the acquisition and interpretation of lands 
associated with the campaign that resulted in the capture of the fort 
in 1862.
    The third bill is H.R. 1594, introduced by our Ranking Member of 
the Subcommittee, Ms. Donna Christensen of the U.S. Virgin Islands, 
would authorize the Secretary of the Interior to conduct a study on the 
feasibility and suitability of establishing the St. Croix National 
Heritage Area in St. Croix, United States Virgin Islands.
    The fourth bill, H.R. 1618, introduced by Congresswoman Denise 
Majette of Georgia, would establish the Arabia Mountain National 
Heritage Area in the State of Georgia.
    Our final bill for consideration today is H.R. 1862, introduced by 
our Committee colleague John Peterson of Pennsylvania, which would 
establish the Oil Region Heritage Area in the State of Pennsylvania.
    I would like to note that this is the Subcommittee's first hearing 
in the 108th Congress on legislation either authorizing a study of a 
potential national heritage area or establishing a national heritage 
area, and the increasing number of communities seeking national 
heritage area designations, along with the concerns raised by many in 
the private property rights community warrant careful discussion of the 
purpose of establishing these areas. I know Chairman Pombo, who is a 
strong advocate of private property rights, shares my caution. So I 
look forward to a lively discussion today and hope that we may work 
toward a better understanding how a national heritage area program 
effects the notion of local control in communities throughout the 
country and ensures the involvement of property owners who would be 
affected by these potential designations.
    Before turning to Ms. Christensen for her opening statement, I 
would like to announce that we have an unusual situation here today in 
that the Administration will not be testifying on the legislation 
before the Subcommittee. Though invited, the National Park Service 
could not prepare its testimony in the time provided by the 
Subcommittee. Nevertheless, the National Park Service will come before 
the Committee at a later date to present their testimony.
    I now recognize Ms. Christensen for any opening statement she may 
have.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I would like to 
welcome my colleagues.
    Today we are meeting to receive testimony on four bills 
concerning proposed National Heritage Areas, and one bill is 
the expansion of a National Battlefield. First let me say that 
I appreciate the Subcommittee holding hearings on these pieces 
of legislation, including my own, H.R. 1594, to provide for a 
suitability and feasibility study of establishing a St. Croix 
National Heritage Area in the United States Virgin Islands.
    National Heritage Areas are places where natural, cultural, 
historical and recreational resources combine to form a 
nationally distinctive landscape arising from patterns of human 
activity shaped by geography. While each island can make a good 
case for designation, the Island of St. Croix, with its two 
historic towns, Christiansted, built in 1734, and Frederiksted, 
built in 1752, is richly blessed with all of the attributes 
that would justify this designation.
    The town's historic architecture matured over a 100-year 
period. The town of Christiansted is one of the finest examples 
of Danish architectural designs in this hemisphere, and the 
Island's history can be traced back some 4,000 years to 2500 
B.C.
    In 1443, Columbus arrived on St. Croix on what is now the 
Salt River National Historic Park and Ecological Preserve, 
making it the only site under the American flag where his men 
went ashore, as well as the first recorded hostile encounter 
between Europeans and Native Americans. Danish soldiers at Fort 
Frederik in Frederiksted, St. Croix were the first to salute 
the American colors during the Revolutionary War on October 25, 
1776, causing an international stir. Fort Frederik has also 
been found to be the site of historic ceramics, 18th and 19th 
century marine shell and coral artifacts.
    Among the many strong ties of great national significance 
between St. Croix and the U.S., perhaps the most significant 
one is that this island was the boyhood home of Alexander 
Hamilton, where he began to develop the skills he later 
employed as the first Secretary of the Treasury of this 
country.
    There is significant interest in preserving and enhancing 
the natural historical and cultural resources of the island on 
a cooperative basis, and such a study would provide guidance on 
how best we can achieve those purposes.
    Our other three bills, H.R. 280, the National Aviation 
Heritage Area bill introduced by Mr. Hobson, H.R. 1618, the 
Arabia Mountain National Heritage Area introduced by Ms. 
Majette, and H.R. 1862, the Oil Region National Heritage Area, 
introduced by Mr. Peterson, are ahead of mine and involve 
proposals to actually designate specific localities as National 
Heritage Areas. The areas in question have been studied for 
such designation and it is my understanding that there is local 
support for all of them. The strong support for the National 
Heritage Area concept is evident in the numerous proposals 
before the Subcommittee to either designate or study an area 
for possible National Heritage Area designation. These areas 
with to join the 23 previously designated National Heritage 
Areas in providing grass roots, community based efforts to 
preserve and enhance their heritage.
    The last bill, H.R. 646, would include land within the Fort 
Donelson National Battlefield that was part of the 1862 battle, 
that are otherwise necessary to protect critical resources 
associated with the military campaign. The battle was the 
North's first major victory of the Civil War and helped launch 
the career of the then unknown General Ulysses S. Grant.
    Mr. Chairman, I again want to welcome our colleagues and 
witnesses to this hearing. I look forward to learning more 
about the areas included in the measures before us today.
    My panelist from the Virgin Islands, our Lieutenant 
Governor, is unable to join us today, and I would like to 
submit his testimony for the record.
    Mr. Radanovich. There being no objection, so ordered.
    [The prepared statement of Lieutenant Governor Vargrave A. 
Richards follows:]

 Statement of Vargrave A. Richards, Lieutenant Governor of the United 
 States Virgin Islands, in Support of the St. Croix National Heritage 
                             Area Study Act

    It is with great pleasure that I express my full support for the 
St. Croix National Heritage Area Study Act. I have great confidence 
that St. Croix is not only suitable as a National Heritage Area, but 
will be a shining example of the program for all Americans.
    St. Croix, United States Virgin Islands, was the backdrop for a 
very important part of America's past. Alexander Hamilton, one of 
America's founding fathers, spent the formative years of his youth on 
St. Croix. On King Street in the town of Christiansted, Alexander 
Hamilton worked for the merchant Nicholas Cruger, and gained valuable 
experience in financial and business matters that would serve him well 
as America's first Secretary of the Treasury. His letter describing the 
hurricane of 1772 was so impressively written that Hamilton was sent by 
local citizens, at the age of 15, to college in New York, thus opening 
a momentous chapter in the pages of American history. Hamilton later 
served as an aide-de-camp to General George Washington, and was one of 
the primary drafters of the Federalist Papers, which formed the basis 
of our democratic system of government.
    We have carefully preserved our eighteenth century heritage, and 
the buildings of Christiansted echo the steps of Alexander Hamilton and 
so many others who walked its historic arcaded galleries in the days 
when Christiansted was the capital of the Danish West Indies. It was on 
St. Croix that Hamilton witnessed first hand the horrors of slavery. 
The experience led him to organize the Society for the Manumission of 
Slaves in 1785, which brought about the end to legal slavery in New 
York State.
    In addition to lasting historical ties to one of the founding 
fathers, Alexander Hamilton, St. Croix is blessed with diverse and 
abundant natural beauty. Among our proudest natural features are the 
Buck Island Reef National Monument, a marine park, a tropical forest, 
salt ponds, lagoons and mangroves, and Point Udall, the eastern most 
point in the United States. The National Park Service also administers 
the Christiansted Historic Site, which includes a well-preserved Danish 
fort, Customs House and Scale House dating from the 18th Century.
    St. Croix also boasts the Salt River Bay National Historic Park and 
Ecological Preserve. This unique park, jointly managed by the National 
Park Service and the Virgin Islands Government, is the first documented 
landing spot of Christopher Columbus, in what is now America, in 1493, 
and encompasses the entire spectrum of human history in the West 
Indies. The site contains valuable archaeological artifacts of ancient 
cultures including the Carib Indians, as well as an ancient ceremonial 
plaza or ball court, a Dutch earthen fort, a beautiful white sand 
beach, coral reefs and endangered mangroves and nesting habitats for 
resident and migratory wildlife.
    I have already committed to work with the National Park Service to 
finalize a Cooperation Agreement for the joint management of the Salt 
River Bay National Historic Park and Ecological Preserve. A copy of my 
letter to Joel Tutein, NPS Superintendent St. Croix, is attached and 
submitted for the record.
    I have been charged by the Governor of the Virgin Islands with the 
task of stimulating the economy of St. Croix. With the assistance of 
the Secretary of the Interior, there is no question that the cultural, 
natural and historical wonders of St. Croix can be protected and 
developed for educational, recreational and tourism purposes for 
generations to come.
    Secretary Norton and I have spoken about the various ways in which 
the Department of the Interior and the Virgin Islands Government can 
work together to enhance the National Parks on St. Croix in order to 
benefit the people of St. Croix, as well as park visitors, and all 
Americans, by preserving these important vestiges of our historic past 
and natural heritage. I have attached for the record a copy of my 
letter dated September 5, 2003 to Secretary Norton which describes the 
many natural, historic and cultural treasures of St. Croix.
    The Government of the Virgin Islands is not the only entity that is 
interested in our beautiful island's heritage. St. Croix is blessed 
various active and committed historic preservation groups, including 
our Historic Preservation Commission, the St. Croix Landmarks Society, 
Farmers in Action, and other fine organizations dedicated to the 
identification and preservation of our cultural heritage. I believe 
there is enormous public support for the designation of St. Croix as a 
National Heritage Area, and feel that this designation will benefit all 
Americans by highlighting and preserving the unique historical, 
cultural and natural resources of St. Croix, United States Virgin 
Islands.
    We Crucians, as people from St. Croix are known, are extremely 
proud of our American citizenship, as well as our unique history, 
culture and traditions. We welcome the opportunity for the Department 
of the Interior to conduct its feasibility study, and stand ready to 
lend our support to the effort to preserve and protect St. Croix's 
historical, cultural and natural heritage for generations to come.
    I would like to thank and to commend The Honorable Congresswoman 
Donna M. Christian Christensen for her initiative in sponsoring this 
legislation.
    I respectfully request your support for the St. Croix National 
Heritage Area Study Act.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Donna, and welcome to 
the Committee. We will begin with The Honorable Denise Majette. 
Denise, if you would like to begin your testimony, we would 
love to hear from you.

STATEMENT OF HON. DENISE MAJETTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Ms. Majette. Thank you, Mr. Chairman. I also want to thank 
Ranking Member Christensen. I appreciate all the Committee 
members giving me the opportunity to share with you the wonder 
of what could become the Arabia Mountain National Heritage 
Area.
    I am proud of the strong, bipartisan support from Georgia 
in this effort. We have five Democrats and five Republicans as 
cosponsors of this bill. My special thanks go to Congressman 
John Linder for his leadership on this bill.
    Also, I would like to recognize the following people who 
are here today and who have helped me lead the charge to 
preserve this area. Mayor Marcia Glenn of Lithonia, Georgia; 
Kelly Jordan, the Chair of the Arabia Mountain Heritage Area 
Alliance; and Marc Cowe, President of Oldcastle Materials, and 
his Chief Financial Officer, Glen Culpepper. Mr. Cowe and 
Oldcastle played a significant role in the renovation of the 
Smithsonian and as a corporate participant in the heritage 
area.
    H.R. 1618 would establish the Arabia Mountain Area as a 
National Heritage Area. The Arabia Mountain Heritage Area is 
truly a living history lesson, illustrating thousands of years 
of human history intertwined with a unique natural landscape.
    Incredibly, there has been human settlement in this 
location for close to 7,000 years, and, in that time, our 
relationship with the land has changed in many ways. This 
heritage region captures snapshots of this developmental 
history with three components: one, areas of land with human 
alteration; two, areas showing the effect of intense human 
development; and three, areas where human development co-exists 
with natural beauty.
    The region we are discussing is a suburb east of the City 
of Atlanta, one of the fastest-growing communities in the 
world. But despite this proximity to Atlanta, one portion of 
the Heritage Area, Panola Mountain, remains untouched by 
development. Panola Mountain is a national landmark which has 
also been set aside by the State of Georgia and the Georgia 
Conservancy. The area features unique granite outcroppings that 
are over 400 million years old. If you've never seen this 
amazing formation, I invite you to visit.
    In addition to the natural beauty, there is also a rich 
cultural history that began when Native Americans lived on 
these lands. Archeological evidence indicates that Native 
Americans quarried these soapstone and granite outcroppings 
more than 5,000 years ago. The most heavily quarried area is 
around the City of Lithonia. The word ``Lithonia'' means ``City 
of Rock'' in Greek. Today, Lithonia is a small but vibrant 
community. It was the birthplace of former Senator Max Cleland. 
It is currently undergoing a revitalization, thanks to the 
vision of its Mayor, Marcia Glenn, who is here with us today. 
Her family's roots are deep in Lithonia, spanning five 
generations.
    The heritage area's namesake, Arabia Mountain, will be the 
heart of the heritage area. Other areas that will be preserved 
include the last farm left in what was once the biggest dairy 
farming area in the State of Georgia; the natural beauty of the 
southern pine and oak forests that once dominated the region; 
rivers, greenways and parks, including a portion of the South 
River; the site of the great Georgia gold rush of the early 
1800s, which was centered right in Lithonia; endangered mosses 
and lichens; and evidence of early American settlements. This 
is a unique cultural and historical haven, which is very close 
to the City of Atlanta. It is a place that Georgians want to 
protect and want to continue to enjoy.
    I trust that this Committee will help Georgia's residents 
showcase and preserve this area's unique heritage for future 
generations by favorably reporting H.R. 1618 to the full 
Committee for consideration.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Denise Majette follows:]

   Statement of The Honorable Denise L. Majette, a Representative in 
                   Congress from the State of Georgia

    I would like to thank Chairman Radanovich, Ranking Member 
Christensen, and all of the Committee members for this opportunity to 
share the wonder of what could become the Arabia Mountain National 
Heritage Area. I am proud to note that there is strong bipartisan 
support from Georgia in this effort, with 5 Democrats and 5 Republicans 
as cosponsors of my bill. My special thanks go to John Linder for his 
leadership.
    I would also like to recognize the following people who have helped 
lead the charge to preserve this area:
    <bullet> Mayor Marcia Glenn of Lithonia, Georgia,
    <bullet> Kelly Jordan, the Chair of the Arabia Mountain Heritage 
Area Alliance, and
    <bullet> Mark Towe President of Oldcastle Materials and his Chief 
Financial Officer, Glen Culpepper. Mr. Towe and Oldcastle played a 
significant role in the renovation of the Smithsonian and is a 
corporate participant in the Heritage Area.
    H.R. 1618, which would establish the Arabia Mountain Area as a 
National Heritage Area, will provide residents of this region with the 
opportunity to preserve the wonders that Arabia Mountain has to offer 
and to share its history and beauty with all Americans.
    The Arabia Mountain Heritage Area is really a living history 
lesson, illustrating the interaction of human activity with a unique 
landscape over thousands of years. Incredibly, there has been human 
settlement in this location for close to 7,000 years. In that time, our 
relationship with the land has changed in many ways. This Heritage 
region captures snapshots of this developmental history with three 
components:
    <bullet> areas of land without human alteration;
    <bullet> areas showing the effect of intense human development; 
and
    <bullet> areas where development coexists with natural beauty.
    The region we are discussing is a suburb of east Atlanta--one of 
the fastest growing communities in the world. Despite this proximity, 
one portion of the Heritage Area, Panola Mountain, is pristine land 
untouched by development. Panola Mountain Conservation Park is a 
National Landmark. The area features unique granite outcroppings that 
are over 400 million years old. These amazing formations alone are 
worth a visit.
    Beyond the natural beauty of the area is a rich cultural history 
that began when Native Americans lived on these lands, and one that 
continues today. Archeological evidence indicates that Native Americans 
quarried these soapstone and granite outcroppings over 5,000 years ago.
    The most heavily quarried area is in and around the City of 
Lithonia which, not coincidentally, means ``City of Rock'' in Greek. 
Many of the historic buildings in town are made out of this granite.
    In addition to soapstone and granite, the great Georgia gold rush 
of the early 1800's, which predated the gold rush in California by 20 
years, was centered right in Lithonia. Today, Lithonia is a small, but 
vibrant community. The birthplace of Senator Max Cleland, Lithonia is 
currently undergoing a revitalization thanks to the vision of its 
Mayor, Marcia Glenn. Her family's roots are deep in Lithonia, spanning 
five generations.
    The Heritage Area's namesake, Arabia Mountain, will be the heart of 
the Heritage Area. With a Nature Preserve, the last farm left in what 
was once the biggest dairy farming area in the state, and with ample 
evidence of historic settlements, Arabia Mountain is the glue that ties 
the whole Heritage Area together. Arabia Mountain is topped by 
endangered mosses and lichens and surrounded by evidence of early 
American developments from the early days of European settlement.
    By connecting the proposed Heritage Area's natural, cultural and 
historical resources through rivers, greenways and parks, this region 
will rapidly become a popular recreation area for residents of the fast 
growing Metropolitan Atlanta area, as well as visitors from all over 
America. This unique cultural and historical haven is a place Georgians 
want to protect and continue to enjoy.
    I trust that this Subcommittee will help local residents showcase 
and preserve this area's unique heritage for current and future 
generations by favorably reporting H.R. 1618 to the full Committee for 
consideration.
                                 ______
                                 
    Mr. Radanovich. Thanks, Miss Majette.
    I notice you have provided a map for us, but it doesn't 
necessarily delineate the heritage area that you're requesting. 
If you could provide some clarification to the Committee, I 
would appreciate it. You don't have to do it right now, but if 
you could provide that to us.
    Ms. Majette. Kelly Jordan, who is going to offer testimony, 
will be able to make it more clear to the Committee.
    Mr. Radanovich. Very good. Thank you.
    Ms. Majette. Thank you.
    Mr. Radanovich. Mr. Hobson, welcome to the Committee.

 STATEMENT OF HON. DAVID HOBSON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Hobson. Thank you, Mr. Chairman. I also want to thank 
the other members that are here today, and Chairman Pombo, for 
having this hearing today.
    I would make a unanimous request to submit a more lengthy 
statement that I will be giving here for the record, if I may.
    Mr. Radanovich. If there is no objection, so ordered.
    Mr. Hobson. Mr. Chairman, I again appreciate the 
opportunity to be here and testify in support of H.R. 280, the 
National Aviation Heritage Area.
    I introduced this legislation with Representatives Mike 
Turner, John Boehner, and virtually all the Ohio delegation to 
create a National Aviation Heritage Area to enhance significant 
historical resources of interest to all Americans and to 
further national awareness of Ohio's key role in the history of 
aviation. On this year's 100th anniversary of the first powered 
flight, I can think of no better way to preserve and carry on 
the years of hard work and preparation leading up to 2003 than 
to establish this heritage area.
    As a lifelong Ohioan, aviation enthusiast, and regular at 
the Dayton Air Show, I am deeply committed to enabling the 
Wright Brothers' story to be told as often and in as many ways 
as possible. With each telling of their story, you never know 
who might be inspired.
    Few technological advances have transferred the world or 
our Nation's economy, society, culture and national character 
as the development of powered flight. As a result, the 
industrial, cultural and national heritage legacies of the 
aviation and aerospace industry in the State of Ohio are 
nationally significant.
    Ohioans have been at the forefront of every major 
development associated with flight. But just as important as 
the Wright Brothers, John Glenn and Neil Armstrong are the 
inventors, scientists and engineers that have made it possible 
in less than 100 years to not only fly between continents, but 
also to fly to the moon and maintain a presence in space.
    While many people know that the Wright Brothers built the 
first airplane in a bicycle shop in Dayton, OH, few are aware 
that this corner of Ohio continued to nurture an astonishing 
number of aviation innovations, leaving behind a rich legacy of 
buildings, sites, and historical artifacts.
    In preparation for the establishment of the National 
Aviation Heritage Area, the Dayton Aviation Heritage Commission 
held a series of three public meetings in Columbus, Cleveland 
and Dayton to generate ideas and build awareness of the 
heritage area concept. Comments were also accepted through a 
website established to facilitate public participation. 
Additionally, five National Park Service and Dayton Aviation 
Heritage Commission studies and planning documents have 
demonstrated that sufficient historical resources exist to 
establish the National Aviation Heritage Area.
    Local governments, the State of Ohio, and private sector 
interests have embraced the heritage area concept and desire to 
enter into a partnership with the Federal Government to 
preserve, protect, and develop the heritage area for public 
benefit. The area would strengthen, compliment and support the 
aviation-related resources within the National Park Service, 
especially the Dayton Aviation Heritage National Historic Park.
    The National Aviation Heritage Area would encompass a core 
heritage area containing significant historic sites in 
Montgomery, Greene, Clark, Warren, Miami and Champaign counties 
in Ohio. Also the area would be administered through the U.S. 
Department of Interior, with the requirement that appropriated 
Federal funds be matched, dollar for dollar, with nonFederal 
funds. This legislation authorizes up to $10 million over 15 
years, with a provision that not more than one million may be 
appropriated in any single fiscal year. This is in keeping with 
the recommendation for heritage areas by the Department of 
Interior and authorizing legislation for heritage areas 
established since 1996.
    The establishment of a National Aviation Heritage Area is a 
major recommendation of the Dayton Aviation Heritage 
Commission, which sunsets at the end of this year and was 
established by Congress in 1992. The commission was charged 
with the responsibility of creating a plan for the continuation 
of the preservation, conservation, interpretation of Ohio's 
aviation heritage in the next 100 years.
    The legislation is fully in the spirit of President Bush's 
recent ``Preserve America'' executive order, which declared, 
``It is the policy of the Federal Government to provide 
leadership in preserving America's heritage...by promoting 
intergovernmental cooperation and partnerships for the 
preservation and use of historic properties.'' Also, it would 
provide even greater support and public awareness of Ohio's 
many contributions to aviation history and the role that both 
civil and military aviation played in establishing the 20th 
century as the American century. It is important that these 
significant sites be preserved and properly interpreted for 
future generations and establishing a national Aviation 
Heritage Area during the 100th anniversary year of flight is a 
solid step in that direction.
    Thank you for the opportunity to testify on behalf of this 
legislation.
    [The prepared statement of Hon. David Hobson follows:]

 Statement of The Honorable David Hobson, a Representative in Congress 
                         from the State of Ohio

    Mr. Chairman: I appreciate the opportunity to be here today and to 
testify in support of H.R. 280, the National Aviation Heritage Area 
Act. I have introduced this legislation with Reps. Mike Turner, John 
Boehner and virtually all of the Ohio Delegation to create a National 
Aviation Heritage Area to enhance significant historical resources of 
interest to all Americans and to further national awareness of Ohio's 
key role in the history of aviation. On this year's 100th anniversary 
of the first powered flight, I can think of no better way to preserve 
and carry on the years of hard work and preparation leading up to 2003, 
than to establish this heritage area.
    As a life-long Ohioan, aviation enthusiast, and regular at the 
Dayton Air Show, I am deeply committed to enabling the Wright Brothers' 
story to be told as often and in as many ways as possible. With each 
telling of their story, you never know who might be inspired.
    Few technological advances have transformed the world or our 
Nation's economy, society, culture, and national character as the 
development of powered flight. As a result, the industrial, cultural, 
and natural heritage legacies of the aviation and aerospace industry in 
the State of Ohio are nationally significant.
    Ohioans have been at the forefront of every major development 
associated with flight. But just as important as the Wright Brothers, 
John Glenn, and Neil Armstrong--are the inventors, scientists and 
engineers that have made it possible in less than 100 years to not only 
fly between continents, but also to fly to the moon and maintain a 
presence in space. While many people know that the Wright Brothers 
built the first airplane in a bicycle shop in Dayton, Ohio, few are 
aware that this corner of Ohio continued to nurture an astonishing 
number of aviation innovations leaving behind a rich legacy of 
buildings, sites, and historical artifacts. Many of those innovations 
occurred and are occurring each day at Wright Patterson Air Force Base 
in Dayton, Ohio, considered by many as the birthplace, home, and future 
of aerospace. Together, these sites comprise the classic case for a 
successful heritage area--historical resources associated with a 
nationally important theme in a geographically tight region with local 
institutions with a proven track record of successful partnerships.
    In preparation for the establishment of the National Aviation 
Heritage Area, the Dayton Aviation Heritage Commission held a series of 
three public meetings in Columbus, Cleveland, and Dayton to generate 
ideas and build awareness of the heritage area concept. Comments were 
also accepted through a website established to facilitate public 
participation. Additionally, five National Park Service and Dayton 
Aviation Heritage Commission studies and planning documents have 
demonstrated that sufficient historical resources exist to establish 
the National Aviation Heritage Area.
    Local governments, the State of Ohio, and private-sector interests 
have embraced the heritage area concept and desire to enter into a 
partnership with the federal government to preserve, protect, and 
develop the heritage area for public benefit. The area would 
strengthen, compliment and support the aviation-related resources 
within the National Park Service, especially the Dayton Aviation 
Heritage National Historical Park.
    As you all know, heritage areas are federally recognized 
collections of historic sites that are linked by theme and geographical 
proximity that have the potential to work together to promote tourism 
and improve historic preservation efforts. Heritage areas serve to 
protect and preserve our Nation's heritage through community-based 
partnerships that emphasize local control and direction. The protection 
of parks and the preservation of our special places is greatly enhanced 
when the people who live in the region and are uniquely qualified to 
care for them are involved. That is accomplished through the 
establishment of heritage areas.
    The National Park Service has outlined four critical steps that 
need to be taken prior to Congressional designation of a national 
heritage area. These include study, public comment, demonstration of 
support, and commitment from the community. The National Aviation 
Heritage Area meets all these tests.
    The National Aviation Heritage Area would be administered through 
the U.S. Department of the Interior with the requirement that 
appropriated federal funds would be matched dollar for dollar with non-
federal funds. This legislation authorizes up to $10 million over 15 
years, with a provision that not more than $1 million may be 
appropriated in any single fiscal year. Additionally, the authority of 
the Secretary of Interior to provide assistance will terminate after 15 
years. This is in full keeping with the recommendation for heritage 
areas by the Department of the Interior and authorizing legislation for 
heritage areas established since 1996.
    This legislation is a major recommendation of the Dayton Aviation 
Heritage Commission, which sunsets at the end of this year and was 
established by Congress in 1992. The commission was charged with the 
responsibility of creating a plan for the continuation of the 
preservation, conservation and interpretation of Ohio's aviation 
heritage into the next 100 years.
    In 1992, former Dayton Area Representative Tony Hall, and I, 
authored the Dayton Aviation Heritage Preservation Act of 1992, which 
established the Dayton Aviation Heritage National Historical Park and 
the Dayton Aviation Heritage Commission. Since enactment, partnerships 
among the Federal, State, and local governments and the private sector 
have greatly assisted the development and preservation of the historic 
aviation resources in the Miami Valley. I strongly believe an aviation 
heritage area centered in Ohio is a suitable and feasible way to 
increase collaboration, promote heritage tourism, and build on the 
established partnerships among Ohio's historic aviation resources and 
related sites.
    The National Aviation Heritage Area would encompass a core heritage 
area containing significant historic sites in Montgomery, Greene, 
Warren, Miami, Clark and Champaign counties in Ohio. Under the 
provisions of this legislation, the established management entity of 
the area would have three years after enactment to compile and submit 
to the Secretary of Interior a management plan. Included in the plan 
would be an inventory of the hundreds of aviation resources contained 
in the core area. Once included in the heritage area, sites will be 
eligible for technical assistance as well as historic preservation and 
educational and cultural funds. Also included would be the Neil 
Armstrong Air and Space Museum in Wapakoneta, Ohio, and the Wilbur 
Wright Birthplace and Museum in Millville, Indiana. These are included 
because they are significant sites within easy driving distance of the 
core area and would enhance the visiting experience of an aviation 
enthusiast visiting the region.
    This legislation is fully in the spirit of President Bush's recent 
``Preserve America'' executive order which declared, ``It is the policy 
of the Federal Government to provide leadership in preserving America's 
heritage ``by promoting intergovernmental cooperation and partnerships 
for the preservation and use of historic properties.''
    The Members of Congress from Ohio have a long record of promoting 
the preservation of aviation sites in Central Ohio. We have previously 
worked together to secure funding for the U.S. Air Force Museum, the 
Dayton Aviation Heritage National Historical Park, and the National 
Aviation Hall of Fame. We have worked closely with the community to 
make sure that this year's Centennial of Flight celebration was a huge 
success.
    This legislation would provide even greater support and public 
awareness of Ohio's many contributions to aviation history and the role 
both civil and military aviation played in establishing the 20th 
century as the American century. It is important that these significant 
sites be preserved and properly interpreted for future generations and 
establishing a National Aviation Heritage Area during the 100th 
anniversary year of flight is a solid step in that direction.
    Thank you again for the opportunity to testify on behalf of this 
legislation.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Hobson. We appreciate your 
testimony.
    The Committee welcomes The Honorable Ed Whitfield to the 
Committee, who is here to speak on his bill, H.R. 646. Ed, 
welcome to the Committee. You may begin.

 STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF KENTUCKY

    Mr. Whitfield. Mr. Chairman, thank you very much. I 
genuinely appreciate this opportunity to appear before the 
Subcommittee, and I am honored to present testimony in support 
of H.R. 646.
    I might add that Congressman John Tanner of Tennessee is a 
cosponsor of this legislation and has been quite supportive of 
it throughout.
    Our legislation proposes an expansion of the boundaries of 
Fort Donelson National Battlefield from its current size of 558 
acres to 2,000 acres. This expansion would allow Fort Henry in 
Tennessee and Fort Heiman in Calloway County, Kentucky, to be 
included in Fort Donelson's boundaries and, therefore, managed 
by the National Park Service. Most of the land in Fort Heiman 
is currently owned by private citizens who are willing to sell 
the land for inclusion in Fort Donelson National Battlefield.
    In addition to allowing Fort Donelson's boundaries to be 
expanded, H.R. 646 calls for a memorandum of understanding 
between the Forest Service and the National Park Service to 
allow Fort Henry be managed by the National Park Service.
    The inclusion of Fort Heiman in the Fort Donelson National 
Battlefield would provide Americans with a more thorough 
understanding of the importance of these three forts. Of 
course, John Tanner and I are also hoping that it will help 
promote economic opportunities and increased tourism for our 
area.
    Fort Henry and Fort Heiman were constructed by Confederate 
forces on the Tennessee River on opposite banks from each 
other. Fort Donelson was constructed on the Cumberland River, 
and all three were intended to guard the rivers from invasion 
by Union troops. In 1862, General Ulysses S. Grant led an 
attack on Fort Henry from both the river and the land. At the 
same time, Fort Heiman in Calloway County, Kentucky, was under 
attack, and within 10 days of those attacks, all three forts 
fell to the Northern forces. The conflict over these three 
forts represents one of the first major battles of the war.
    It also was a particularly important battle for the North, 
because when these three forts on the river fell to the Union, 
it was a great loss to the South and, more importantly, gave 
the North control of an important transportation hub of the 
South. It also marked the early stages of the South being 
divided by Northern forces, which ultimately led to the 
downfall of the Confederacy.
    I would also like to stress at this time that this 
legislation does not allow for seizure of private property, and 
does not allow the Park Service to claim eminent domain, but 
simply authorizes the National Park Service to acquire land by 
way of donations or purchase from willing sellers.
    We need to continue to honor Americans who perished in the 
Civil War and are buried at Fort Heiman and other battlefields 
throughout the country. As the only time in our Nation's 
history when brother fought against brother, it is important to 
recognize and preserve the remaining battlefields and forts 
from this conflict as memorials sacred to their memory.
    Again, I want to thank you for giving this legislation your 
consideration and, in addition to this legislation, I also have 
an amendment that I've been talking to the staff about that 
would add Kentucky into the Vicksburg Campaign Trail study. I 
would like to continue working with your staff to add this 
during the markup. I would also add that Congressman John 
Tanner is supportive of this as well.
    I want to thank you again for this opportunity to testify 
on an important cultural and historic part of Kentucky, and 
also northern Tennessee, and I look forward to responding to 
any questions you may have.
    [The prepared statement of Hon. Ed Whitfield follows:]

 Statement of The Honorable Ed Whitfield, a Representative in Congress 
                       from the State of Kentucky

    Thank you, Mr. Chairman and members of the Committee, for allowing 
me to testify regarding an issue that is very important to me: the 
legacy of the First District of Kentucky. I am honored to present H.R. 
646 for your consideration, because it relates to a piece of our 
nation's history I have always been interested in. The stories about 
what took place in my District during the Civil War are of great 
historic importance to western Kentucky. It is difficult to find any 
natives of the First District of Kentucky who do not have ancestral 
ties to this great national conflict.
    My legislation proposes an expansion of the boundaries of Fort 
Donelson National Battlefield from its current size of 558 acres to 
2,000 acres. This expansion would allow Fort Henry, in Tennessee, and 
Fort Heiman, in Calloway County, Kentucky, to be included in Fort 
Donelson's boundaries and, therefore, managed by the National Park 
Service. Most of the land in Fort Heiman is currently owned by private 
citizens who are willing to sell the land for inclusion in Fort 
Donelson National Battlefield.
    Fort Henry is controlled by the U.S. Forest Service. In addition to 
allowing Fort Donelson's boundaries to be expanded, H.R. 646 calls for 
a Memorandum of Understanding between the Forest Service and the 
National Park Service to allow the remaining portion of Fort Henry to 
be managed by the National Park Service. Management by the Park Service 
would provide much-needed recognition of these historic forts and would 
help preserve the complete story of the battle of Fort Donelson for 
future generations. The inclusion of Fort Heiman in the Fort Donelson 
National Battlefield would not only aid in providing Americans with a 
more thorough understanding of how the Civil War was fought, but the 
recognition of this major conflict in western Kentucky could bring new 
visitors to my District and promote economic development in the 
surrounding community.
    Please allow me to give you a brief history of these three forts. 
Fort Henry and Fort Heiman were constructed by Confederate forces on 
the Tennessee River, on opposite banks from each other. Fort Donelson 
was constructed on the Cumberland River and all three were intended to 
guard the rivers from invasion by Union troops. In 1862, General 
Ulysses S. Grant led an attack on Fort Henry from both the river and 
from land, while Fort Heiman was attacked from land by General C.F. 
Smith. Confederate troops left Fort Heiman, which at that point had not 
been completely constructed, and moved across the river for refuge in 
Fort Henry. But while Fort Henry was still under attack by General 
Grant, part of it became flooded by the Tennessee River, and 
Confederate General Lloyd Tilghman, who was in command of both Fort 
Heiman and Fort Henry, sent most of his troops overland to Fort 
Donelson nearby and surrendered the remainder of his forces to Union 
control. After 10 days of fighting between the North and the South at 
Fort Donelson, this third fortress also fell to the North. The conflict 
over these three forts represents one of the first major battles of the 
war.
    This also marked the first major victory in the Union's ``Anaconda 
Plan,'' which consisted of utilizing important rivers to cut off the 
South's western forces from its eastern forces. With major roads being 
scarce, the Cumberland and Tennessee Rivers were major arteries of 
transportation and were heavily traversed and vital to the army's 
movements. When the three forts on the rivers fell to the Union, it was 
a great loss to the South. The North now had control of an important 
transportation hub of the South. That marked the early stages of the 
South being divided by northern forces, which ultimately led to the 
downfall of the Confederacy.
    However, the story of Fort Heiman was not over yet. After it was 
abandoned by Union forces in 1863, Confederate General Nathan Bedford 
Forrest re-occupied Fort Heiman in 1864, and used his position there to 
ambush Union gunboats on the Tennessee River, some of which he sank, 
and others he captured for re-use by Southern forces. Using these 
gunboats, he led a successful raid on a major supply station of the 
Union in Johnsonville, Tennessee. However by that time the war was 
drawing to a close and it was too late for even such a successful 
mission to make a large impact on the outcome of war.
    Civil War sites outside the management and care of the National 
Park Service are becoming an endangered species. Many of them are 
disintegrating due to neglect and erosion. Sites sacred to our nation's 
history are being consumed by urban sprawl. After the owner of Fort 
Heiman passed away several years ago, the land was subdivided, and 
several lots were sold for use as private residences. As this became 
known, concerned western Kentuckians formed a committee, consisting of 
local interest groups and concerned citizens, to save Fort Heiman from 
being developed into a housing complex. After much effort on the part 
of these dedicated Kentuckians to raise money and acquire grants to 
purchase this property, over 200 acres of Fort Heiman is ready to be 
bought, and, in turn, will be donated to the National Park Service in 
order to become a part of Fort Donelson National Battlefield. H.R. 646 
would facilitate the forward movement of this land acquisition by 
allowing the National Park Service to accept the donated land.
    I want to stress the point that this legislation does not allow for 
seizure of private property and does not allow the Park Service to 
claim eminent domain, but only authorizes the National Park Service to 
acquire land by way of donations or purchase from willing sellers. 
There are a small number of home owners with small plots of land within 
the Fort Heiman boundaries who do not wish to sell their property at 
this time. This legislation would in no way require them to relinquish 
their land unless they choose to sell. Fort Heiman is not the only 
Civil War Battlefield with private residences within its boundaries; 
Gettysburg National Battlefield, for one, still has various private 
properties interspersed throughout its boundaries, with which the Park 
does not interfere.
    We need to continue to honor those Americans who perished in the 
Civil War and are buried at Fort Heiman and other battlefields 
throughout the country. As the only time in the history of our nation 
when brother fought against brother, it is important to recognize and 
preserve battlefields and forts from this conflict as memorials sacred 
to their memory.
    Again, I want to thank you for giving this legislation your 
consideration today, and I hope I have been able to effectively 
demonstrate why this project is so important to me and my constituents. 
In addition to this legislation, I have an amendment that would add 
Kentucky into the Vicksburg Campaign Trail Study, and I would like to 
work with your staff to add this during the markup, if possible. I have 
several letters of support from local officials, as well as a map of 
the area in question that I would like to submit for the record. I will 
now answer any questions you have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Whitfield. I 
appreciate your testimony and I appreciate the attendance of 
everybody here today.
    Are there any questions of the members who have testified?
    Yes, Donna.
    Mrs. Christensen. I would like to ask Congresswoman 
Majette, I understand there might be a window of opportunity 
open now because there's a lot of development in the area. Is 
it important for us to have this designation now to preserve 
that and to have it done at a reasonable cost rather than 
having the property values increase?
    Ms. Majette. Yes, it is. Over the last couple of decades, 
there has been substantial growth and development in the area. 
I moved to Georgia 20 years ago and I can personally say that 
things have changed substantially with a great deal of the 
development. That area has transitioned from a farming area to 
a very suburban region, moving toward an urban residential 
area. So having this designation in place will allow for the 
protection and preservation of that area. There is great 
support from the business community to have that done.
    Mrs. Christensen. I wanted to also say for the record that 
you are fortunate to have the April 18, 2002 testimony from 
Brenda Barrett, who is the national coordinator for the 
heritage area, supporting the designation, stating that the 
National Park Service believes that those criteria have been 
fulfilled through the work done by the Arabia Mountain National 
Heritage Area Alliance and other entities. We are hampered a 
bit today by not having the National Park Service here to 
testify, but you are fortunate to have that testimony from last 
year available now.
    Ms. Majette. Yes. The testimony was offered last year on 
the Senate side. The bill had much more progress on the Senate 
side than it did on the House side, so we did have that 
testimony. Mr. Jordan can address that more specifically, if 
necessary.
    Mrs. Christensen. Congressman Hobson, there is an amendment 
that is going to be recommended by the next speaker. Have you 
had a chance to look at that? It's a recommendation, a 
suggestion to authorize the Secretary to enter into cooperative 
agreements with public and private organizations, to provide 
public and private organizations operational assistance.
    Mr. Hobson. We don't have any objections to the amendment.
    Mrs. Christensen. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    Mr. Souder, did you have a question?
    Mr. Souder. I have a couple of comments and then a couple 
of questions.
    This Committee, which I have been a member of now for a 
number of years--I don't have the figure in front of me, but I 
believe we have something on the order of 48 heritage studies 
that Congress has cleared, and the National Park Service can do 
about six of those a year. In other words, they are backlogged 
somewhere right now of six to 8 years of things that Congress 
has already approved in heritage areas, because we have done 
these things and, after the first few, we just started pumping 
them through here. We have kind of taken our breath for a year 
and we need to look at this.
    The type of questions I will also ask of the second panel 
is as somebody who is a strong believer in heritage areas, but 
as somebody who is looking at similar things in Indiana and 
other parts of the Midwest. For those of us east of the 
Mississippi, we don't have big wilderness areas. Heritage areas 
are our best way to preserve our history, both cultural and 
natural history. But there has to be some fundamental questions 
answered, and I didn't hear some of those answered.
    One is in regard to the Arabia Mountain Area. I think one 
of the first questions is, why is this area nationally 
significant as opposed to regionally significant or locally 
significant, that that has to be part of any concept in a 
national thing. Because there are Native American groups all 
over the country, and there are endangered species all over the 
country; there are beautiful mountains all over the country. 
The question is, did this area provide something that was 
unique, that it shouldn't be a state or a local heritage area 
as opposed to a national heritage area?
    Ms. Majette. In terms of the national significance, one of 
the things that is very significant is the mining that took 
place in the Lithonia area. In fact, a number of buildings here 
in Washington were built as a result of using materials, 
granite and soapstone, from the quarries in the Lithonia area, 
in what would be the heritage area. So I believe that has 
particular significance nationally and not just locally or 
regionally.
    Mr. Jordan can address those questions or perhaps answer 
the question more to your satisfaction, but that is just one 
point I would like to make.
    Mr. Souder. I think as we move through the bill, our 
problem is not to be hostile to any given area, but in looking 
at this that should be national. For example, Indiana limestone 
is in most of the major buildings and is the core of rebuilding 
Washington, but we wouldn't have a national heritage area there 
just because the limestone came from there. It's a cluster of 
different things that we have to ask.
    Similarly to Ohio, which clearly the Dayton area, with the 
Wright Brothers and, for that matter, Holman, Indiana, and 
Millville, have a direct national hook. In Dayton, the Wright-
Patterson Museum there is fabulous, as is the one in 
Wapakoneta. The question is, in adding the other areas around 
Ohio, the two questions I will have as this moves forward--
obviously, I'm going to be very perceptive as a neighbor and 
someone who understands the heritage area.
    The question is, are the areas that are added to the Dayton 
facility unique in their national impact, or are they 
regionally important? For example, all over the country there 
are areas that produced airplanes. People argue over at what 
point and the status--Gary, Indiana, disputes some of who did 
what first, or who was in the air first. There are locations 
all over the country that would have that.
    The second part of the Ohio question I would have--and I 
know this may be something for the second panel, too. I know 
you're a very powerful member of the Appropriations Committee 
and can pretty much do whatever you want in regards to what we 
do.
    [Laughter.]
    Mr. Souder. That's a tremendous respect, and you know that. 
It's a public acknowledgment of your lead with this.
    Mr. Hobson. I can remember something we did in Indiana.
    Mr. Souder. Yes. One of the questions is, should this be 
like a Midwest Aviation Heritage Area, because otherwise, if 
you make it so that it has to have a unique national thing 
beyond Dayton, how do you not include North Carolina, how do 
you not include Southern California, how do you not include 
others if it's a national heritage area?
    Mr. Hobson. Well, I think they might be included in their 
own national heritage area in some of those. But I think you 
can get too big and too unwieldy if you try to put everything 
under one umbrella.
    What I think we tried to do here, there are some unique 
things to this region that we would like to preserve. For 
example, propellers basically have been developed there, and 
are still manufactured in certain areas. There is the old 
Aeronca airfield and production facility down near Middletown, 
in John Boehner's district. There are some things where flight 
tended to initially, once they began to develop, they learned 
to really fly an airplane in Ohio. It first flew in the air for 
a short period of time down in North Carolina, but actually at 
Huffman Prairie is where they actually learned to turn an 
airplane and learned the types of things that were necessary. 
There were a lot of people who worked on that scientific 
agenda.
    The other thing that's very important that's in the 
national park today is there was a great business relationship 
with Paul Lawrence Dunbar and the Wright Brothers, which showed 
a business relationship between a person of color back at that 
time and these two brothers running this bicycle shop who 
developed this machine that didn't exist in a lot of places in 
this country. So we want to accentuate that in our region. But 
we didn't want to take it so far that it began to impact on 
other parts of this country who also have a national heritage 
aviation background. I can think of California, for example, 
where a lot of planes were built there later on. But this is 
mainly for the early stuff, and also taking advantage of some 
of the Ohioans, like John Glenn and Neil Armstrong and people 
in this particular region of the State, or really the region of 
the country more than anything.
    Mr. Souder. Thank you.
    Mr. Radanovich. Thank you.
    Miss Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. Rather 
than ask a question, I would like to just make a statement in 
support and to thank my colleagues, Mr. Hobson, Mr. Whitfield 
and Denise Majette for coming here to testify.
    I believe in the importance of protecting and educating 
America on the history of aviation and the growth of the 
aerospace industry. Two weeks ago, Mr. Chairman, I had the 
opportunity to attend the annual performance of the Face of 
America series at Wolf Trap, and this year the performance 
celebrated the 100th anniversary of flight by honoring the 
Dayton Aviation Heritage National Historic Park, the Tuskegee 
Airmen National Historic Site, and the Wright Brothers National 
Memorial at Kitty Hawk. It was a very, very awesome experience. 
So I go on record to support this legislation.
    A National Aviation Heritage Area would complement these 
three sites already within the system and would do much to 
preserve and protect the legacy of Wilbur and Orville Wright. 
The heritage area, as has been stated, would stand to educate 
future Americans of the greatness that the Wright Brothers 
accomplished and so many others have perfected after them.
    Finally, Mr. Chairman, aviation certainly has annexed the 
insular areas to the mainland. I guess I wouldn't be here as 
frequently as I have been if it wasn't for aviation, and I 
think I speak for Representative Donna Christensen as well.
    Mr. Radanovich. I think you speak for me, too.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Miss Bordallo.
    Lady and gentlemen, thank you for your testimony. You're 
more than welcome to join us on the dais for the rest of the 
hearing and after the next panel.
    Next I would like to go to our Committee colleague, John 
Peterson of Pennsylvania, to speak on H.R. 1862. John, thank 
you for your patience and you may begin.

 STATEMENT BY THE HONORABLE JOHN E. PETERSON, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Peterson. Thank you, Chairman Radanovich, and Ranking 
Member Christensen. I want to thank you for this opportunity 
and I want to thank our panelists who came here from 
Pennsylvania that you will hear from later.
    I would like to begin by stating that in 1858 Colonel Edwin 
Drake was sent by a group of New England investors to 
Titusville, Pennsylvania, to see if there was any hope for 
drilling for oil. Drake had no experience to fit him for this 
task. A man 40 years of age, he had spent his life as a clerk 
and a railway conductor. It was months before Drake succeeded 
in getting together the tools, the engine and the rigging 
necessary to bore his well. He had difficulty in getting a 
driller who knew how to manipulate them.
    However, in August of 1859, with odds against him, Drake 
proceeded to hand-dig this well that marked the first 
commercial oil drilling in history. He actually hand dug the 
well, a task that I guess not many of us could do, 68 feet 
deep. Oil had been recognized as a potentially significant 
substance long before Drake's well, with the attention of the 
world to this corner of northwestern Pennsylvania. Many 
accounts of the valleys of the Allegheny and its tributaries 
tell of springs and streams whose surfaces were often covered 
with a thick oily substance. Indeed, the Oil Creek Valley was 
so named even before Drake's discovery.
    Drake's primary contribution to the industry was in 
drilling the first well for the express use of producing oil. 
This discovery of oil sparked a mad rush to the area between 
Titusville and Oil City, with whole towns and hundreds of new 
oil wells quickly appearing. Commercial drilling quickly spread 
to other parts of the country and eventually throughout the 
world. The reason they went there first was because oil was 
continually seeping in the springs and the streams and it was 
just oozing up out of the ground.
    In 1994, the area that had been called ``The Valley that 
changed the world'' was officially designated a State Heritage 
Park by the Commonwealth of Pennsylvania. Currently, there are 
six separate national historic districts located within the 
State Heritage Park boundary. H.R. 1862, the Oil Region 
National Heritage Area, would unite these districts and 
coordinate a Federal/State partnership so vital to preserving 
and promoting this region. Indeed, it is now time to recognize 
the national significance of this great region by designating 
the Oil Region National Heritage Area.
    National heritage areas link all of the many historic 
sites, facilities and related tours and educational programs of 
the community. They are places where historic natural, cultural 
and recreational resources combine to form a nationally 
distinctive landscape that tells the story of its residents. 
Through the establishment of the Oil Region National Heritage 
Area, we are allowing this story to be told through the 
maintenance of exhibits and the restoration of buildings, the 
development of educational and recreational opportunities, and 
most importantly, an increase in public awareness about the 
impact that this region had on the world and how it changed the 
world.
    The oil region of northwestern Pennsylvania is rich in 
culture and natural and scenic beauty, historic communities, 
including many Victorian mansions and recreational 
opportunities. I am fortunate enough to live in one of those 
Victorian mansions that was actually started construction in 
1859, the same year that Colonel Drake dug the Drake well.
    The interesting part is, it was owned by a Samuel P. 
Wilson, who made his money from being a physician and an oil 
producer and he actually produced the oil lease that came 
forward after Drake well was dug in that immediate area. He had 
an oil lease.
    My home, when I bought it, had a two-inch gas line coming 
into it that no gas was in, but that fueled the first 
electrified home in that part of the country because he had 
plenty of gas and he had an electric generator. My shed used to 
be the first electric generating facility in that part of the 
country.
    Oil fueled the industrial revolution and modernized 
America's transportation industry. It is vital that we preserve 
and enhance the heritage of areas such as this, that have had 
such an impact on our Nation and the world at large. H.R. 1862 
would add a great deal to the region, both economically and 
culturally, with minimal Federal Government involvement. An 
enhanced partnership with the Federal Government will greatly 
assist the Commonwealth of Pennsylvania, volunteer 
organizations, private businesses and the oil industry, in 
promoting the heritage of the region and stimulating economic 
development. The bill bars the use of Federal funds for the 
acquisition of property. Moreover, Federal funds cannot be used 
to pay more than 50 percent of an activity's total cost. H.R. 
1862 would not take control away from the community but would 
instead enhance local objectives while relying on the knowledge 
and expertise of the Department of Interior in preserving 
national historic areas.
    Today it is clear that Pennsylvania is no longer a major 
contributor to U.S. oil production. Oil Creek now runs clear. 
Hillsides that once were oil soaked before the boom now exist 
as natural oak forests, and the example of that is Oil Creek 
State Park, which is in the heart of this. In their slide 
presentation, they show these hills with nothing but oil 
derricks and snags and dead trees. There is not one blade of 
grass, no greenery, and today that is--It looks like a virgin 
oak forest because it's 150 years later and it's a very mature 
oak forest and very beautiful.
    Nevertheless, this region's role in kicking off a global 
industry is extremely notable. All major oil companies have 
their roots here, including Sunoco, Standard Oil, Texaco--the 
list goes on. Every major oil company started its roots in 
Titusville or Oil City, Pennsylvania, Venango County.
    There is no doubt that the region has much heritage to 
share and to celebrate, but there is still much work to be done 
if the story of this great region is to be fully appreciated. A 
cooperative effort of resources to preserve the area and fully 
promote its economic development is needed. H.R. 1862 strives 
to ensure that the story of oil in this oil region lives on.
    [The prepared statement of Mr. Peterson follows:]

   Statement by The Honorable John E. Peterson, a Representative in 
                Congress from the State of Pennsylvania

    In 1858, Colonel Edwin Drake was sent by a group of New England 
investors to Titusville, Pennsylvania, to see if there was any hope for 
drilling oil. Drake had no experience to fit him for his task. A man 
forty years of age, he had spent his life as a clerk and a railway 
conductor. It was months before Drake succeeded in getting together the 
tools, engine, and rigging necessary to bore his well, and he had 
difficulty in getting a driller who knew how to manipulate them. 
However, in August of 1859--with the odds against him--Drake proceeded 
to hand-dig the well that marked the first commercial oil drilling in 
history.
    Oil had been recognized as a potentially significant substance long 
before Drake's well called the attention of the world to this corner of 
Northwestern Pennsylvania. Many accounts of the valleys of the 
Allegheny and its tributaries tell of springs and streams whose 
surfaces were covered with a thick oily substance. Indeed, the Oil 
Creek valley was so-named even before Drake's discovery. Drake's 
primary contribution to the industry was in drilling the first well for 
the express use of producing oil. This discovery of oil sparked a mad 
rush to the area between Titusville and Oil City, with whole towns and 
hundreds of new oil wells quickly appearing. Commercial drilling 
quickly spread to other parts of the country and eventually throughout 
the world.
    In 1994, the area that has been called the ``valley that changed 
the world'' was officially designated a State Heritage Park by the 
Commonwealth of Pennsylvania. Currently, there are six separate 
national historic districts located within the State Heritage Park 
boundary. H.R. 1862--the Oil Region National Heritage Act--would unite 
these districts and coordinate a federal-state partnership so vital to 
preserving and promoting this region. Indeed, it is now time to 
recognize the national significance of this great region by designating 
the Oil Region a National Heritage Area.
    National Heritage Areas link all of the many historic sites, 
facilities, and related tours and educational programs of the 
community. They are places where historic, natural, cultural, and 
recreational resources combine to form a nationally distinctive 
landscape that tells the story of its residents. Through the 
establishment of the Oil Region National Heritage Area, we are allowing 
this story to be told through the maintenance of exhibits and the 
restoration of buildings, the development of educational and 
recreational opportunities, and--most importantly--an increase in 
public awareness about the impact that this region has had on the 
world.
    The Oil Region of northwestern Pennsylvania is rich in cultural 
traditions, natural and scenic beauty, historic communities including 
many Victorian mansions, and recreational opportunities. Oil fueled the 
industrial revolution and modernized America's transportation industry. 
It is vital that we preserve and enhance the heritage of areas such as 
this that have had such an impact on our nation and the world at large.
    H.R. 1862 would add a great deal to the region, both economically 
and culturally, with minimal federal government involvement. An 
enhanced partnership with the federal government will greatly assist 
the Commonwealth of Pennsylvania, volunteer organizations, and private 
businesses in promoting the heritage of the region and stimulating 
economic development.
    This bill bars use of federal funds for the acquisition of real 
property. Moreover, federal funds cannot be used to pay more than 50% 
of an activity's total cost. H.R. 1862 would not take control away from 
the community but would instead enhance local objectives while relying 
on the knowledge and expertise of the Department of the Interior in 
preserving national historic areas.
    Today it is clear that Pennsylvania is no longer a major 
contributor to U.S. oil production. Oil Creek now runs clear. Hillsides 
that once were oil-soaked before the boom now exist as mature oak 
forests. Nevertheless, this region's role in kicking off the global 
industry is extremely notable. All major oil companies have their roots 
here, including Sunoco, Standard Oil, and Texaco; and the discovery of 
commercial drilling in this area has added millions upon millions of 
dollars to the wealth of the United States.
    There is no doubt that the region has much heritage to share and to 
celebrate. But there is still much work to be done if the story of this 
great region is to be fully appreciated. A cooperative effort of 
resources to preserve the area and fully promote its economic 
development is needed. This bill strives to ensure that the story of 
this Oil Region lives on.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Peterson.
    With that, we will move on to our next panel, the second 
panel, which consists of a number of people testifying on all 
of these five bills.
    Miss Amanda Wright Lane, Commissioner of the Dayton 
Aviation Heritage Commission in Cincinnati, Ohio; The Honorable 
Larry Whitaker, McLean County Judge, from Calhoun County, 
Kentucky; Mr. Kelly Jordan, Chair of Arabia Mountain Heritage 
Area Alliance, from Atlanta, Georgia; Mr. Robert Murray, 
Chairman of Venango County Commissioners, Franklin, 
Pennsylvania; Ms. Roxanne Hitchcock, Board Member of the Oil 
Heritage Region in Pennsylvania; Mr. Peyton Knight, Legislative 
Director of the American Policy Center, Warrenton, Virginia; 
and Mr. Daniel Clifton, Federal Affairs Manager, Americans for 
Tax Reform, Washington, D.C. I hope you all can fit at that 
table.
    Good afternoon, ladies and gentlemen. Welcome to the 
Committee. I want to give you a few ground rules here. What we 
would like to do is hear from each and every one of you 
regarding your bills, and then open up the full panel to 
questions from Members on the dais afterwards. If you will be 
mindful of our clock, we would like to think that everybody can 
say everything they need to say within 5 minutes. The lights 
run green, yellow, red. Green is go, yellow is speed up, just 
like a traffic light, and red is stop. So please conform to 
that 5-minute rule.
    Your written testimony will be submitted for the record.
    If you want to speak off the cuff or ad lib this 
presentation, that's fine with me. With that, we will go from 
my left to right.
    We are honored to have Miss Amanda Wright Lane, who I 
understand is a descendant of the Wright Brothers, who is here 
to speak regarding H.R. 280, which is the National Aviation 
Heritage Area.
    Miss Lane, welcome to the Committee. You may begin your 
testimony.

   STATEMENT OF AMANDA WRIGHT LANE, SPOKESPERSON, THE WRIGHT 
FAMILY, AND COMMISSIONER, DAYTON AVIATION HERITAGE COMMISSION, 
                        CINCINNATI, OHIO

    Ms. Lane. Mr. Chairman and members of the Subcommittee, my 
name is Amanda Wright Lane and I am the great grandniece of 
Orville and Wilbur Wright. It is my privilege to testify here 
today in support of H.R. 280, the National Aviation Heritage 
Act. I do so as a member of the Dayton/Miami Valley community 
and as a representative of the Wright family.
    Before I go any further, I want to thank you for the 
special backdrop today. It makes me feel right at home.
    I offer my testimony with three specific points in mind. 
First, Ohio is the birthplace of aviation. Aviation began there 
100 years ago, and throughout time, the industry has been 
sustained and further refined to be as it is today because of 
what has taken place in Dayton and the area.
    It is no coincidence the home of the world's first pilots, 
my Uncle Orv and Uncle Wil, and the home of the world's first 
man to walk on the Moon, Neil Armstrong, are located within 60 
miles of each other. Today, we find history being made again at 
Wright-Patterson Air Force Base as its scientists and engineers 
create aviation break-throughs in the form of invisible 
airplanes and stealth technology. Our accomplishments are many; 
our history is rich and full and worthy of National Heritage 
Area designation.
    Second, we are a community that has always passionately 
supported aviation and aviation history. We have lived it, and 
we have memorialized it in many of our local institutions, 
including Aviation Trail, the National Aviation Hall of Fame, 
and John W. Berry Sr. Wright Brothers Aviation Center at 
Carillon Park, just to name a few. We have provided both moral 
as well as financial support to these institutions.
    Last, I come to testify before you because now we wish to 
share the nationally significant stories of Dayton and the 
Miami Valley with others that share a passion for aviation. We 
believe it is an important part of American history and see it 
as a story that explains one of mankind's most impressive 
achievements--powered flight.
    With passage of the National Aviation Heritage Act, we can 
tell this most important story in a way that is more fitting 
and more effective than if we do it on our own. Our aviation 
heritage is not just a national story. It's a world story. In 
my travels throughout the nation, as the representative of the 
Wright Family in this centennial year, I have experienced first 
hand the interest expressed by many in the incredible history 
of my great grand uncles and those who followed in their 
footsteps.
    I see my role in this testimony today as one of color 
analyst, and my intention is to help you understand how our 
unique aviation heritage inspires citizens in the greater 
Dayton area and beyond. Aviation and aeronautical science were 
born in Dayton at Uncle Orv and Uncle Wil's bicycle shop at the 
turn of the last century. I would like to share with you now 
the world's first pilot's description of flight over Huffman 
Prairie:
    ``The machine is in motion. You take your seat at the 
center of the machine beside the operator. He slips the cable 
and you shoot forward. Before reaching the end of the track, 
the operator moves the rudder and the machine lifts from the 
ground like a kite. The ground under you is a perfect blur at 
first, but as you rise, the objects become clearer. If you did 
not take the precaution to fasten your hat before starting, you 
have probably lost it by this time. The operator stops the 
motor while still high in the air. The machine comes down, and 
after sliding a few feet, comes to a rest. The motor close 
beside you kept up an almost deafening roar during the whole 
flight, yet in your excitement, you didn't notice it until it 
stopped.'' Orville Wright, September, 1908.
    In July of this year, I had the opportunity to understand 
the moment that Uncle Orv was describing when I witnessed a 
flight over Huffman Prairie during Dayton's Centennial of 
Flight Celebration. While the circumstances were different, the 
exhilaration of that experience was the same. Instead of Uncle 
Orv at the controls, it was former Senator and U.S. astronaut 
Jake Garn, piloting a Wright Flyer high over the historic 
field, which is now a part of our National Park System. His 
flying machine was not a Wright original but, rather, a machine 
designed and built by Utah State University engineering 
students and their professors as a tribute to the 100th 
anniversary of flight. It was constructed out of the world's 
most modern composite technology materials, but in the air it 
looked like muslin, wire, spruce, and a dab of glue. Thank 
goodness, Uncle Orv recorded his feelings about those early 
flights, for when Senator Garn taxied to a stop, he could 
barely speak. With great emotion and moist eyes, he tried to 
tell reporters and spectators what a joy it was to fly in a 
machine like that, with a stick and rudder. Moments like that 
are a perfect testimony as to why America should celebrate 
man's ability to overcome the endless obstacles to fly, and why 
a National Aviation Heritage Area is a wonderful idea.
    The people of Ohio are fully engaged and they are ready to 
continue the work of preservation, conservation, interpretation 
and protection of our Nation's most unique and truly American 
legacy: the story of our history of aviation. Our 
collaborative, community-based effort began in Dayton over 20 
years ago with the establishment of the Aviation Trail. That 
movement grew and, in 1992, Congress created a partnership park 
that will be one of the focal points of the National Aviation 
Heritage Area.
    In closing, I would like for you to consider one amendment 
to the proposed legislation involving the assistance the 
Secretary may provide to public and private organizations 
within the Heritage Area. The proposed change will more clearly 
define the roles of all parties described in H.R. 280. This 
suggested amendment is based on language found in P.L. 104-333, 
which pertains to the Ohio and Erie Canal National Heritage 
Corridor. This authority has proven exceptionally effective in 
creating and sustaining a wide variety of public and private 
partnerships. I have included suggested language as an 
attachment to these remarks.
    I want to thank Congressman Hobson for introducing and 
vigorously supporting this legislation.
    [The prepared statement of Amanda Wright Lane follows:]

            Statement of Amanda Wright Lane, Spokesperson, 
                           The Wright Family

    Mr. Chairman, and members of the Subcommittee, my name is Amanda 
Wright Lane and I am the great grandniece of Orville and Wilbur Wright. 
It is my privilege to testify here today in support of H.R. 280, the 
National Aviation Heritage Act. I do so not only as a member of the 
Dayton/Miami Valley community, but also as a representative of the 
Wright Family.
    I offer my testimony with three specific points in mind. First, 
Ohio is the birthplace of aviation. Aviation began there a hundred 
years ago, and throughout that time, the industry was sustained and 
further refined to be what we know it to be today because of what has 
taken place in Dayton and the surrounding region. It is no coincidence 
that the home of the world's first pilots, my great granduncles, Wilbur 
and Orville, and the home of the world's first man to walk on the moon, 
Neil Armstrong, are located within 60 miles of each other. Today, we 
find aviation history being made at Wright-Patterson Air Force Base, as 
its scientists and engineers create aviation breakthroughs such as 
``invisible airplanes'' and stealth technology. Our accomplishments are 
many, our history is rich and full, and worthy of National Heritage 
Area designation. Second, we are a community that has always 
passionately supported aviation and aviation history. We have lived it, 
and we have memorialized it in many of our local institutions, 
including the Aviation Trail, the National Aviation Hall of Fame and 
the John W. Berry Sr. Wright Brothers Aviation Center at Carillon Park, 
just to name a few. We have provided both moral, as well as financial, 
support to these institutions. Lastly, I come to testify before you 
because now we wish to share the nationally significant stories of 
Dayton and the Miami Valley with others who have the same passion about 
aviation as we do. We believe it is an important part of American 
History and see it as a story that explains one of mankind's most 
impressive achievements-powered flight. With passage of the National 
Aviation Heritage Act we can tell this most important story in a way 
that is more fitting and more effective than if we do it on our own. 
Our heritage in aviation is not just a national story, but one that is 
of interest to many around the world. In my travels throughout the 
Nation this year, I have experienced first hand the interest expressed 
by many in the aviation history of my great granduncles and those who 
followed in their footsteps.
    I see my role in this testimony today as one of a ``color analyst'' 
and my intention is to help you understand some of the specific 
examples of how our aviation heritage inspires citizens in the greater 
Dayton area, and beyond. Aviation and aeronautical science were born in 
Dayton, in Uncle Orv and Uncle Wil's bicycle shop, at the turn of the 
last century. I'd like to share with you now the world's first pilot's 
description of flight over Huffman Prairie:
        ``The engine is put in motion...You take your seat at the 
        center of the machine beside the operator. He slips the cable 
        and you shoot forward. Before reaching the end of the track the 
        operator moves the front rudder and the machine lifts from the 
        ground like a kite...The ground under you is at first a perfect 
        blur, but as you rise, the objects become clearer...If you did 
        not take the precaution to fasten your hat before starting, you 
        have probably lost it by this time. The operator stops the 
        motor while still high in the air. The machine comes down...and 
        after sliding a few feet, comes to a rest''.The motor close 
        beside you kept up an almost deafening roar during the whole 
        flight, yet in your excitement, you didn't notice it until it 
        stopped.'' Orville Wright, September 1908
    In July of this year I had the opportunity to understand the moment 
Uncle Orv was describing when I witnessed a flight over Huffman 
Prairie, during Dayton's Centennial of Flight Celebration. While the 
circumstances were different, the exhilaration of that experience was 
the same. Instead of Uncle Orv at the controls, it was former Senator 
and U.S. Astronaut Jake Garn in a Wright Flyer, in the air over the 
historic field which is now a part of our National Park system. His 
flying machine was not a Wright original, but rather a machine designed 
and built by Utah State University engineering students and their 
professors as a tribute to the 100th anniversary of flight. It was 
built with some of the world's most modern composite technology 
materials, but in the air, the machine looked like it was made of 
muslin, wire, spruce, and a dab of glue. Thank goodness, Uncle Orv 
recorded his feelings about those early flights. When Senator Garn 
taxied to a stop, he could barely speak. With great emotion and moist 
eyes, he tried to tell reporters and spectators what a joy it was to 
fly in a machine like that, with a stick and rudder. It is those 
feelings of passion, as expressed by the senator that demonstrate the 
kind of passion I'm talking about.
    American passion for aviation soars in many different directions. 
In the Dayton area alone this summer, we hosted authors, artists, 
photographers, historians, educators, engineers, and scientists...all 
who have an intense interest in looking to the skies. Celebrities like 
John Travolta, and heroes like Senator John Glenn, Dr. Neil Armstrong, 
and the Tuskegee Airmen participated in Dayton's and other celebrations 
as their personal tribute to history and flying. And this year, the 
Dayton Air Show was attended by an unprecedented crowd that came from 
around the world to enjoy performances by the world's best pilots... 
the Thunderbirds, the Blue Angels, and the Canadian Snowbirds to name a 
few.
    The celebrations were magnificent and grand. Thousands of people 
were on hand this 4th of July when President Bush visited Ohio to talk 
about the role of aviation has played in our nation's freedom and 
peacekeeping efforts. His trip to Wright-Patterson Air Force Base was a 
salute to the Base's historic role in aviation's past, present, and 
future.
    In 2003, the dream of flight has and continues to be celebrated 
from New York City to Pasadena, Osh Kosh to Kitty Hawk. But for my 
family and I, the most significant show of interest in our heritage 
sometimes...often times, comes in the smaller events in this historic 
year. In May, I spoke to a Cincinnati 4th grade class on the subject of 
why the Wright Brothers were successful in unlocking the secrets of 
flight when others weren't. After my talk, many of the kids surrounded 
me, all asking questions. As they slowly drifted away, I was left alone 
with my model of the 1903 Flyer and one last boy. He was standing back 
a bit, with his hands in his uniform pants pockets, and he was wearing 
glasses that were bigger than he was. When I smiled at him, he moved 
forward, picked up the tiny flying machine, and said, ``Mrs. Amanda 
Wright Lane, this stuff just fascinates me!'' Passion in the smallest 
package...
    Moments like that one are the perfect testimony as to why our 
nation is celebrating man's ability to overcome the endless obstacles 
to fly and why a National Aviation Heritage Area is a wonderful idea. 
The people of Ohio are fully engaged, and they are ready to continue 
the work of preservation, conservation, interpretation, and protection 
of our nation's most unique and truly American legacy...the story of 
our history of aviation. Our collaborative, community-based effort 
began in Dayton over 20 years ago with the establishment of the 
Aviation Trail. That effort grew and with the help of Congress in 1992, 
we created a partnership National Park that will be one of the focal 
points of the National Aviation Heritage Area. With passage of HR280 we 
can include other partners and sites that are an important part of 
America's aviation legacy. That's why the designation of a National 
Aviation Heritage Area is so important to us all. There is still much 
to be done, but fortunately, there are many of us in Dayton and the 
entire proposed heritage area that are willing to do this important 
work.
    And needless to say, they are passionate about it!
    I want to leave you with some words of my grandfather, Milton 
Wright, from the dedication of his uncles' 1903 Wright Flyer to the 
Smithsonian Institution in 1948. These words remind me of that young 
4th grader:
    ``The aeroplane means many things to many people. To some it may be 
a vehicle for romantic adventure or simply quick transportation. To 
others it may be a military weapon or a means of relieving suffering. 
To me it represents the fabric, the glue, the spruce, the sheet metal, 
and the wire which, put together under commonplace circumstances but 
with knowledge and skill, gave substance to dreams and fulfillment to 
hopes.''
    In closing, I would like for you to consider one amendment to the 
proposed legislation involving the assistance the Secretary may provide 
to the public and private organizations within the Heritage Area. The 
proposed change will more clearly define the roles of all parties as 
described in H.R. 280. This suggested amendment is based on language 
found in PL 104-333 which pertains to the Ohio and Erie Canal National 
Heritage Corridor. This authority has proven exceptionally effective in 
creating and sustaining a wide variety of public/private partnerships. 
I have included suggested language as an attachment to these remarks.
    I want to thank Congressman Hobson for introducing and vigorously 
supporting this legislation. He has demonstrated outstanding leadership 
on behalf of his constituents. I want to thank you Mr. Chairman and the 
other members of the Subcommittee for allowing me the opportunity and 
privilege to offer my testimony to you today.

                               Attachment

                    SUGGESTED AMENDMENT TO H.R. 280

    Section 107. Technical and Financial Assistance; Other Federal 
Agencies.
    Redesignate subsection (b) as subsection (c) and insert the 
following new subsection:
        ``(b) Other Assistance-The Secretary may provide to the public 
        and private organizations within the Heritage Area, including 
        the management entity for the Heritage Area, operational 
        assistance as appropriate to support the implementation of the 
        Management Plan, subject to the availability of appropriations. 
        The Secretary is authorized to enter into cooperative 
        agreements with public and private organizations for the 
        purposes of implementing this subsection.''
    Summary of comments: The Wright Family strongly supports the 
creation of the National Aviation Heritage Area as proposed in H.R. 
280. A number of nationally significant sites exist within the proposed 
area, and should be made available for all citizens to experience. 
Expressions of support for the establishment of the National Aviation 
Heritage Area have been received by the Wright family from not just 
residents of Dayton but from citizens throughout the Nation.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Miss Lane.
    Next is The Honorable Larry Whitaker, who is here to speak 
on H.R. 646. Mr. Whitaker, welcome to the Committee. You may 
begin your testimony.

   STATEMENT OF HON. LARRY B. WHITAKER, McLEAN COUNTY JUDGE, 
                       CALHOUN, KENTUCKY

    Judge Whitaker. Thank you, Mr. Chairman, Mrs. Christensen, 
and members of the Committee. After sitting and listening to 
the former speaker, I must say that my father was in the Air 
Force and I was born at Wright-Patterson Air Force Base, so 
maybe I should be speaking to her bill instead of yours, 
Congressman. However, I will speak to the bill that is before 
us today, introduced by Congressman Whitfield.
    I trust that my testimony before the Committee today is 
worthy of the efforts that Judge Elkins, the Calloway County 
Fiscal Court, friends of ``Save Fort Heiman'', our 
congressional delegation, has expended for over 20 years. In 
1978, Fort Heiman was listed on the National Register, and it 
has been through a long period of time that they have worked 
very hard to come to this day, actually.
    I would make the remark that in my written testimony there 
is an error. I believe I attributed a paraphrase to Chairman 
Pombo that actually should have been to Representative Miller 
regarding the classrooms. I apologize for that. However, 
certainly he would have said it if he had the chance, or 
perhaps members of the Committee would have.
    I am here as a representative of West Kentucky Corporation. 
The West Kentucky Corporation is a regional entity. We were 
created by the Kentucky legislature. We encompass 45 counties, 
both within the 1st and 2nd Congressional Districts of 
Kentucky. Even though Calloway County and Fort Heiman are 
nearly 100 miles away from McLean County where I serve, they 
are part of the constituency of West Kentucky Corporation. They 
are a part of the area development districts which also help 
and oversee the land and water moneys that have made this 
available.
    Just briefly, within the last few years, almost a million 
dollars has been raised by the Friends of Fort Heiman, as well 
as moneys that have flowed into our community from the land and 
water conservation fund. So I thank you specifically for those, 
as well as some TEA-21 moneys that have come our way.
    Where we are today with Fort Heiman is that the West 
Kentucky Corporation has, with Steve Zay and Debbie Spenser, 
worked very diligently to actually be the synergy. You have my 
written testimony and I will not go into the historic accounts 
that the Congressman has provided, as well as the National Park 
Service, but from a local perspective, I am here to represent 
to the Committee that local government, the local community, is 
very much in favor of this bill. Again, we have worked hard and 
I do believe it is through the efforts of Murray State 
University, as well as those local elected officials, such as 
myself, who are ready to partner with the National Park Service 
and also with the Members of Congress.
    It is a rare opportunity that we have back home to sit down 
and work through the details and come together as governments, 
as units of government, whether it be State, Federal or county 
government, and agree upon ideals that better and enhance our 
communities.
    One of the members had asked earlier about the national 
significance perhaps of the legislation that you all are 
considering today. The inclusion of Fort Heiman by the 
expansion of Fort Donelson's boundaries would bring a national 
battlefield into Land Between the Lakes National Recreation 
Area. I think that with the Land Between the Lakes area and the 
visitors that we receive from across the country, this is also 
a very nationally significant move.
    As I mentioned, regionalism is very important where we are. 
As Congressman Miller's remarks regarding the classrooms, with 
the passage of the Civil War Battlefield Preservation Act of 
2002, my father-in-law has a farm in southern Trigg County, 
near a community that's called Free State. It is called Free 
State because it's where African-Americans rejoined and were 
able to farm and live after the Civil War. It's just a few 
miles down the south row to Donelson and Dover, TN. I have been 
there several times, have taken my children there, went to the 
interpretive center by the National Park Service. However, that 
was just one fort. What I learned and when I began to study 
from that was that it would require not only Fort Donelson, 
Fort Henry, Fort Heiman, but certainly a classroom.
    I would encourage the favorable expression of this 
Committee on House Resolution 646. Thank you, Mr. Chairman.
    [The prepared statement of Larry B. Whitaker follows:]

  Statement of The Honorable Larry B. Whitaker, McLean County Judge, 
                           Calhoun, Kentucky

    Thank you Chairman Radanovich and members of the Committee for 
allowing me the opportunity to come before you to speak on this very 
worthwhile project. For over 20 years, an effort has been underway to 
preserve Fort Heiman.
    <bullet> Nearly three years ago, a ``Save Fort Heiman'' Committee 
was formed which included representation from the KY Department of 
Local Government, KY Department of Transportation, Kentucky Heritage 
Council, Sons of the Confederacy, Murray State University, Kentucky 
Department of Fish and Wildlife Resources, West Kentucky Corporation 
and included Calloway County Judge Executive Larry Elkins, McLean 
County Judge Executive Larry Whitaker, State Senator Jackson, State 
Representative Buckingham, Michael Pape with Congressman Whitfield's 
office, and T.C. Freeman with Congressman Bunning's office as active 
members. Representatives of Congressman Tanner, the Civil War Trust, 
and the Tennessee State Civil War group have also been kept abreast of 
the efforts.
    <bullet> Community Awareness Meetings have been held in both 
Calloway County, Kentucky, and Dover, Tennessee. There are over 300 
citizens who have expressed strong support for the initiative in 
writing and are kept abreast of the happenings through e-mails and 
website.
    Over the past two years, a website has been created, three grants 
written, as well as site visits conducted by numerous agencies and 
individuals.
    <bullet> In 2002, a grant of $600,000 from TEA-21 funds was 
received for land acquisition. The 20% match came in the form of land 
donation as well as donated labor for disking and seeding the primary 
property of 25 acres (with a value of $25,000); Kentucky Department of 
Fish and Wildlife agreed to donate seed to return the area to native 
grasses and the Calloway County Fiscal Court has promised assistance in 
removal of scrub trees, undergrowth and road maintenance to the site.
    <bullet> An additional $75,000 grant was received from Land and 
Water Conservation and in 2003, the Kentucky Heritage Land Conservation 
Fund Board awarded $105,000 for surveys, appraisals and land 
acquisition with the understanding that an additional $250,000 would be 
available in the future for additional land acquisition.
    <bullet> West Kentucky Corporation and Murray State University 
have agreed to provide office space until which time a structure can be 
built on site.
    <bullet> On September 23rd, tentatively, a check presentation will 
be held in Murray for the purchase of the land from Dr. Jackson.
    <bullet> West Kentucky Cooperation has been and continues to be 
the synergy behind this initiative to save Ft. Heiman.
    Mr. Chairman, I have read many of the recent proceedings of the 
Resources Committee in an attempt to familiarize myself with the spirit 
and intent of federal policy that the Committee has promulgated. The 
spirit and intent of previous action by this Committee demonstrates 
your commitment to preserving our nation's historic Civil War 
battlefields national treasures. With that, I respectfully defer the 
more pertinent historic information attributed to H.R. 646 to the 
National Park Service and Congressman Whitfield's remarks. Rather, my 
testimony and appearance this afternoon is directed toward the example 
of cooperation that can exist between government, all levels of 
government, and our respective constituency. The opportunity to build 
upon that cooperative spirit is present at this very moment with the 
passage of H.R. 646.
    We ask that the federal government, through its representation on 
The Subcommittee on National Parks, Recreation and Public Land to 
partner with entities of local, regional, and state government; thereby 
furthering the interests of the general public through the long-term 
preservation and interpretation of Ft. Heiman.
    Passage of H.R. 646 conveys the federal government's approval of 
local governments cooperating, regionally, without regard to geo-
political or socioeconomic differences and the responsibility we both 
must acknowledge when such an initiative arises from the a local 
initiative that has garner overwhelming public support.
    The boundary expansion of Ft. Donelson so stated in H.R. 646 to 
include Ft. Heiman will expand the classroom at this site for future 
generations and our national history (to paraphrase Resources Committee 
Chairman Richard Pombo, Chairman comments upon the passage of H.R. 5125 
(Civil War Battlefield Preservation Act of 2002). the committee's 
response to a local initiative, which they have already garner 
overwhelming public support. Please give H.B. 646 your greatest 
consideration.
    The following Resolution, which has been adopted by local 
governmental entities, is further testimony of the importance of my 
appearance here today:

                               RESOLUTION

HB 646--EXPANDING THE BOUNDARIES OF FORT DONELSON NATIONAL BATTLEFIELD 
                         TO INCLUDE FORT HEIMAN

    Whereas: Fort Heiman has great historical significance in the Civil 
War effort and the trilogy of Forts Heiman, Henry, and Donelson served 
as a one of the more significant strategic engagements early in the War 
Between the Sates.
    Whereas: Fort Heiman has been purchased by a development group and 
divided into lots and is at risk of becoming a subdivision.
    Whereas: The developer and many individual property owners have 
expressed an interest in selling their properties for the purpose 
turning the area into a National Historic Site.
    Whereas: The community through grants and other sources to purchase 
the land to be held in trust by Calloway County, Kentucky, with the 
hope to give the property to the National Park has raised over $1 
million.
    Whereas: The National Park Service has determined this site to be 
culturally, historically and environmentally significant.
    Therefore: We, the citizens interested in the preservation of Fort 
Heiman, respectively request the Committee's passing of H.B. 646 and 
the expansion of the boundaries of Fort Donelson National Battlefield 
to include the land area of Fort Heiman and provide the necessary 
funding to interpret the site.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Whitaker. I appreciate your 
testimony.
    Next, speaking on the same bill, is Mr. Kelly Jordan. Mr. 
Jordan, welcome to the Committee. You may begin your testimony.

STATEMENT OF KELLY JORDAN, CHAIR, ARABIA MOUNTAIN HERITAGE AREA 
                   ALLIANCE, ATLANTA, GEORGIA

    Mr. Jordan. Thank you, Chairman Radanovich, members of the 
Committee. I am Kelly Jordan--
    Mr. Radanovich. Forgive me, but you're not speaking on the 
same bill.
    Mr. Jordan. I was hesitant to correct you.
    Mr. Radanovich. You are here to speak on H.R. 1618, the 
Arabia Mountain Heritage Area. Welcome.
    Mr. Jordan. Thank you, sir.
    I am Kelly Jordan, Chair of the Arabia Mountain Heritage 
Area Alliance. I want to thank you all for having me here 
today. In particular, I want to thank my Congresswoman, Denise 
Majette, for her introduction of this bill and her leadership 
that has led us to have, as you well know, nine other sponsors 
here in the House. We very much appreciate that, Congresswoman.
    Time is short and, Chairman Radanovich, I'm going to take 
you up on your offer to extemporize a little and try to answer 
a couple of questions I have already heard come up so far 
today.
    Let me first say just who we are and what we are with 
Arabia Mountain. We are a very compact area, where an amazing 
variety of industrial and commercial and historic and 
environmental resources all come together, only ten miles long, 
comprising parts of three counties that now have over a million 
people within them. Yet still, we have the documented Native 
American historic sites that the Congresswoman referred to.
    We still have the Civil War history, where General Sherman 
camped on his way home from Atlanta. We still have the original 
settler houses of the first Europeans in the area that were 
built in the 1820s and 1830s, descendants of Revolutionary War 
veterans.
    Of special significance, we have the granite quarry 
industries that the Congresswoman referred to that began after 
the Civil War at Arabia and Lithonia. These quarries employed 
generations of immigrants to the United States--Scottish, 
Irish, Welsh, and later African-Americans. And it's true, that 
stone from this quarry went all over this United States. They 
are in the academies at Annapolis and West Point; they're in 
the Rayburn Office Building here. They're in the piers of the 
George Washington Bridge in New York.
    We are pleased that the industries that are active in the 
area today, such as Oldcastle Materials, which is represented 
here today, Hanson, LaFarge, they're all participating in our 
alliance. We have numerous historical, industrial and 
commercial buildings in the Arabia area that are listed on the 
National Register and have historic places already. As we 
mentioned, we have the last remaining dairy farm that we have 
preserved, which was an area that was once the dairy farm 
capital of our entire State and region.
    Then we have Arabia Mountain itself, which is home to 
federally listed endangered and threatened plant species, 
fantastic displays of wildflowers, if you ever go there. Then 
we have Panola Mountain, which was mentioned, a national 
natural landmark. That's not an easy designation to come by. It 
recognizes that many people regard it as the finest rock 
outcrop in the eastern United States.
    In sum, our very compact heritage area displays the entire 
history of this part of the United States, and at the same time 
preserves a unique environmental heritage. We think it's a 
historical miracle that such an opportunity exists only 20 
minutes from downtown Atlanta, given the growth of the Atlanta 
region.
    So, to put our enthusiasm for it to the test, we went ahead 
and commissioned, at our expense, a 9-month long study process 
as to whether we would qualify to be considered a national 
heritage area. In her statement, which I do ask be added to the 
record, if you please, before the Senate Subcommittee on 
National Parks, on April 18th, 2002, Linda Barrett, who is the 
national coordinator for heritage areas, did say that ``The 
Department recognizes the appropriateness of designation the 
Arabia Mountain National Heritage Area.''
    To address Congressman Souder's question that he posed, 
which I think is a good one, what I have tried to describe is 
that we have a number of national features in the Arabia area. 
We have national register building sites; we have a national 
natural landmark, with endangered, federally listed plant 
species; we have quarries of national significance, other 
features all in a compact area.
    Now, maybe any one of these features by themselves would 
not be compelling or overwhelming, but we believe the 
combination in a small area is very compelling and does warrant 
national attention.
    Finally, who are we? The Arabia Alliance is a bipartisan, 
multijurisdictional, multiracial, multi-generational alliance, 
where there's even an alliance between the environmentalists 
and the corporate community at Arabia Mountain. For instance, 
private landowners have donated over $15 million of their 
property. Private philanthropy has contributed over $2 million. 
We have over $20 million in land acquired by our local county 
jurisdictions. We have professional firms and individuals that 
have donated years of time. And we have the support of numerous 
national environmental organizations. The Conservation Fund is 
represented here today, as well as our Georgia environmental 
organizations.
    Representative John Linder, one of the cosponsors, is 
heavily supportive in part because our project respects private 
property rights. A provision specifically to that effect is 
written into our bill, which I think you're all aware.
    So, finally, the Alliance has been honored by the support 
of all the local residents and people in the Lithonia area, 
from women's club members to the most prominent families that 
we have in the area. And corporate supporters, such as the 
Georgia Power Company, Coca Cola, Oldcastle, who is here today. 
Yet, despite all we have, all that we've accomplished, we 
really believe that national recognition is warranted and will 
help us enormously to let people know what there is to come and 
see down here near Atlanta, Georgia.
    Thank you for your consideration.
    [The prepared statement of Kelly Jordan follows:]

                 Statement of S. Kelly Jordan, Chair, 
                 Arabia Mountain Heritage Area Alliance

    Dear Chairman Radanovich and Members of the Committee:
    On behalf of the many partners in the Arabia Mountain Heritage Area 
Alliance, I want to say how exciting it is to be here before you today. 
In particular, we want to thank our Congresswoman Denise Majette for 
her introduction of this legislation. It has been an honor for me to 
serve as Chair of the Arabia Mountain Heritage Area Alliance for the 
past six years.
    As we came to fully understand National Heritage Areas we saw what 
a productive partnership can be created between Federal, State and 
local jurisdictions through this mechanism. The resulting national 
recognition, combined with a relatively small amount of Federal support 
matched locally, can catalyze such great benefits for the people of 
Georgia and the United States.
    Our local, State and National Alliance partners share a deep love 
and affection for this part of our country--a compact area where an 
amazing variety of industrial, agricultural and environmental treasures 
occur within such a relatively small region, just for instance:
    <bullet> We have visible and documented Native American 
archaeological areas and rock quarries that extend back over 7,000 
years that are already designated historic sites at the local and 
Federal levels;
    <bullet> One of our favorite people in Georgia, General William T. 
Sherman, wrote in his diary about camping at Arabia Mountain his first 
night out of Atlanta on his way back home in 1864;
    <bullet> The granite rock quarries that began after the Civil War 
at Arabia and Lithonia, Georgia, employed generations of Scottish, 
Welch and other immigrants to the United States and provided stone for 
historic buildings and areas all across the U.S., such as the West 
Point and Annapolis academies and Dupont Circle here in D.C. Lithonia 
granite is now being suggested as the material for the future Martin 
Luther King memorial in D.C. We are working with several of the major 
quarry industries such as Oldcastle Materials, LaFarge and Hanson 
Aggregates on several new projects including the creation of a major 
interactive historical museum;
    <bullet> Of the numerous historic industrial, commercial and 
residential buildings in the area built out of the native stone, one is 
already listed on The National Register of Historic Places and other 
nominations are in the process;
    <bullet> We are also now supporting the documentation and 
preservation of lesser-known histories throughout the heritage area 
including the oldest and neglected African American cemetery that is 
home to the still unmarked grave of U.S. serviceman Lucious Sanders who 
founded the Lithonia Civic League to promote voting rights and is 
considered the ``M.L.K. of Lithonia'';
    <bullet> With the help of our state government, the project has 
preserved for all time the last remaining dairy farm in DeKalb County--
an urbanized county of 700,000 citizens which once was the dairy 
capitol of the entire State. Other agricultural history is preserved by 
hundreds of acres where the land terraces are visible from cotton 
farming when cotton was king in the South;
    <bullet> Arabia Mountain itself is home to federally listed 
endangered, threatened and rare plant species and fabulous displays of 
unusual plants and wild flowers year round and was itself a gift to the 
public a generation ago by the Davidson Minerals company (now Hanson 
Aggregates); and
    <bullet> Panola Mountain near Arabia is already a designated 
National Natural Landmark and considered one of the finest rock 
outcrops in the eastern United States. Panola Mountain preservation was 
the first project of The Georgia Conservancy 36 years ago.
    In sum, this compact Heritage Area can display the entire history 
of this part of the United States, from our Native Americans to the 
early settlers and farmers, through the Civil War to the great quarry 
industries and farming--and at the same time preserve a unique 
environmental heritage. Yet I wish to point out that this bill 
explicitly respects and preserves private property rights within the 
proposed heritage area.
    It's an historical miracle that such an opportunity still exists in 
the year 2003 only twenty minutes from the downtown of a major urban 
center, particularly one growing like the Atlanta region. Think of the 
educational opportunities afforded by being within a one hour field 
trip of nearly half the school population of our entire state! We need 
to preserve and tell these stories and this legislation will help 
greatly.
    Obviously we are enthusiastic, but to put that enthusiasm to the 
test, we conducted a thorough study of what an Arabia Mountain National 
Heritage Area could offer to the public. We hired the highly 
experienced ICON firm, which we retained for a nine month long study 
process. It was our pleasure to have the close and invaluable 
involvement of the Rivers, Trails and Conservation Assistance Program 
of The National Park Service Southeast Region Office all along the way. 
The study findings we believe successfully address all the proposed 
criteria set forth by the National Park Service for future national 
heritage areas. The entire study (and much more) is posted on our 
website at www.arabiaalliance.org.
    In her statement (attached) to the Senate Subcommittee on National 
Parks on April 18, 2002, Brenda Barrett, National Coordinator for 
Heritage Areas within the National Park Service, said ``The Department 
recognizes the appropriateness of designating the Arabia Mountain 
National Heritage Area, as the area has the characteristics necessary 
to be established as a National Heritage Area and the potential to meet 
the expectations of the National Park Service's National Heritage Area 
program. (There) are four critical steps that need to be completed 
before Congress establishes a National Heritage Area...The National 
Park Service believes that those criteria have been fulfilled through 
the work that was done by the Arabia Mountain Heritage Area 
Alliance...in conducting the feasibility study that was issued in 
February 2001.
    Finally, permit me a few words about partnership. The Arabia 
Mountain Heritage Area has the enthusiastic support of all relevant 
state and local partners:
    <bullet> Local landowners have gifted over $15 million in 
property;
    <bullet> Local philanthropy has contributed over $2 million in 
cash;
    <bullet> Over $22 million in land acquired by three counties;
    <bullet> Over $ 5 million in land acquired by the State of 
Georgia; and
    <bullet> Professional firms and individuals have donated untold 
hours.
    We also have the invaluable support and participation from numerous 
national organizations such as The Conservation Fund, the Trust for 
Public Land and The Nature Conservancy, as well as state organizations 
such as The Georgia Trust for Historic Preservation, The Georgia 
Wildlife Federation, The Georgia Conservancy and many others.
    We're proud of the bipartisan nature of this project. In addition 
to Congresswoman Majette's leadership, Congressman John Linder has been 
a great supporter and his help was invaluable in drafting the bill. We 
have had the support and participation of the recently deceased Marine 
Corp. General Ray Davis, who donated land to the project adjacent to 
his home, and, of course, the support of another decorated serviceman 
and Lithonia native former Senator Max Cleland. We're proud also to say 
that this project occurs in a highly diverse area and has multiracial 
involvement at all levels of the Alliance.
    Finally, the Alliance has been honored by the support and 
involvement of the families and community associations in the Arabia 
and Lithonia area ranging from the youngsters in our educational video 
to the 92 year old S.B. Vaughters (our last dairy farmer) to the 
Lithonia Woman's Club members and local garden clubs to the prominent 
families such as the Davidsons who gifted Arabia Mountain to the public 
over thirty years ago.
    Yet, despite our degree of local commitment and accomplishment to 
date, our full success very much needs the recognition and operational 
assistance that designation as a National Heritage Area would provide 
and we humbly ask for your support for this legislation.
    Thank you very much for your time and interest. I will be happy to 
answer any questions that you may have.
    Attachments:
                                 ______
                                 

 Statement of Brenda Barrett, National Coordinator for Heritage Areas, 
     National Park Service, Department of the Interior, Before the 
 Subcommittee on National Parks of the Senate Committee on Energy and 
Natural Resources, Concerning S. 1526, To Establish the Arabia Mountain 
             National Heritage Area in the State of Georgia

                             April 18, 2002

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1526, to establish the Arabia 
Mountain National Heritage Area in the State of Georgia.
    The Department recognizes the appropriateness of designating the 
Arabia Mountain National Heritage Area, as the area has the 
characteristics necessary to be established as a national heritage area 
and the potential to meet the expectations of the National Park 
Service's national heritage area program. To meet the President's 
Initiative to eliminate the deferred maintenance backlog, we need to 
continue to focus our resources on caring for existing areas in the 
National Park System. Therefore, we recommend that the Committee defer 
action on S. 1526 during the remainder of the 107th Congress. While 
designation of the heritage area will not result in additional 
acquisition or capital costs, the authorization provides for up to $1 
million per year in grant assistance costs not to exceed $10 million 
through September 30, 2016.
    The proposed Arabia Mountain National Heritage Area would include 
parts of DeKalb, Rockdale, and Henry Counties that lie within the 
eastern side of the Atlanta metropolitan area. The heritage area would 
encompass the Davidson-Arabia Mountain Nature Preserve, the City of 
Lithonia, the Panola Mountain State Conservation Park, portions of the 
South River, and several active granite quarries.
    The Arabia Mountain Area, which is known primarily for its granite 
quarries, is rich in natural, cultural, and historic resources. Arabia 
Mountain and other nearby prominent granite formations have been linked 
to human settlement and activity for thousands of years, starting over 
7,000 years ago with the quarrying and trading of soapstone. The area 
contains specific types of granite outcroppings that are very rare and 
do not occur anywhere outside the Piedmont Region. Granite from this 
area has been quarried and used around the nation, including in 
buildings at the military academies at West Point and Annapolis.
    The area retains an open and small-scale character, in contrast to 
the more intensively developed areas closer in to the City of Atlanta. 
The rapid growth of the metropolitan area in recent years has prompted 
a recognition among those involved in this proposal that there may be 
only a narrow window of opportunity to retain open lands and protect 
important resources before land costs and economics of development make 
such efforts much more difficult. The local governmental entities in 
the proposed national heritage area and the State of Georgia support 
national heritage area designation for this area.
    S. 1526 would establish the Arabia Mountain National Heritage Area 
within the boundary defined by the map developed for the feasibility 
study for the heritage area. The legislation would name the Arabia 
Mountain Heritage Area Alliance as the management entity for the 
heritage area and provide for the Secretary of the Interior and the 
Alliance to carry out the legislation through a cooperative agreement. 
Provisions of the bill regarding the authority and duties of the 
management entity, the development of a management plan, and Federal 
technical and financial assistance that would be available to the 
heritage area are similar to provisions that have been included in 
legislation designating other heritage areas in recent years.
    National heritage areas are places where natural, cultural, 
historic, and recreational resources combine to form a nationally 
distinctive landscape arising from patterns of human activity shaped by 
geography. Heritage conservation efforts are grounded in a community's 
pride in its history and traditions, and its interest in seeing them 
retained. The areas are designed to protect large, regional landscapes 
and resources that tell the story of its residents. They are best 
managed by entities with broad community representation and the ability 
to foster partnerships throughout the region.
    In the view of the National Park Service, there are four critical 
steps that need to be completed before Congress establishes a national 
heritage area. Those steps are:
    1. completion of a suitability/feasibility study;
    2. public involvement in the suitability/feasibility study;
    3. demonstration of widespread public support among heritage area 
residents for the proposed designation; and
    4. commitment to the proposal from the appropriate players which 
may include governments, industry, and private, non-profit 
organizations, in addition to the local citizenry.
    The National Park Service believes that those criteria have been 
fulfilled through the work that was done by the Arabia Mountain 
Heritage Area Alliance and other entities, including the National Park 
Service, in conducting the feasibility study that was issued in 
February, 2001. The work that has been done by the Arabia Mountain 
Heritage Area Alliance and its many partners in recent years has served 
to confirm our view that this area would be an appropriate candidate 
for designation as a national heritage area, once sufficient progress 
has been made in addressing the backlog of deferred maintenance in the 
National Park System.
    Mr. Chairman, that concludes my statement. I would be pleased to 
answer any questions you or other members of the Subcommittee may have.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T9384.001
                                 
    Mr. Radanovich. Thank you, Mr. Jordan. I appreciate your 
testimony.
    Next is Mr. Robert Murray, Chairman, Board of 
Commissioners, Venango County, Pennsylvania, here to speak on 
H.R. 1862. Mr. Murray, welcome to the Committee.

             STATEMENT OF ROBERT MURRAY, CHAIRMAN, 
       VENANGO COUNTY COMMISSION, FRANKLIN, PENNSYLVANIA

    Mr. Murray. Thank you, Mr. Chairman, members of Congress, 
Committee staff, media and guests. On behalf of the good people 
of Venango County, I bring you greetings and sincere 
appreciation for this opportunity to speak with you today about 
the valley that changed the world.
    The previous speaker, Miss Wright Lane, noted the 
significance of the mural behind you. Let me note that, without 
oil, the airplane would not fly, the ships would not sail, and 
the cars, trucks and buses would not drive.
    Mr. Radanovich. What about the angels up there?
    [Laughter.]
    Mr. Murray. I think the angels would make it.
    Let me tell you about some other angels. You ought to know 
about the people of Venango County and the people of the 
world's first oil patch. We are proud sons and daughters of the 
Teamsters, the Steelworkers, the coopers, the drillers, and the 
roughnecks of the oil industry. Our forefathers devised and 
built innovative transportation systems, financial 
institutions, commodity exchanges, manufacturing plants, and 
oil refineries.
    Today, with much of the oil now depleted, production is 
minimal. We are attempting to diversify, modernize, and grow 
our economy, but the economic boom of the 1990s never quite 
made it to Venango County. The last remnants of the big oil 
companies that were founded there, household names like Quaker 
State and Pennzoil, are now gone from our economic landscape. 
But the oil industry that was born in Venango County continues 
to heavily influence the world economy and world events. Oil 
plays a significant role in our Nation's history, our Nation's 
way of life, our Nation's position in the world, and oil will 
continue to influence America and the world for decades to 
come.
    Today the oil patch is a lush, green, beautiful valley, 
with an abundance of natural beauty. Its rivers, forests and 
lakes make it attractive to visitors. The compelling history of 
the oil region, combined with the raw beauty of our mountains, 
positions Venango County and eastern Crawford County to take 
special advantage of a national heritage designation.
    Oil fuels the pride, the nostalgia, and the enthusiasm we 
in Venango County have for the oil patch. We recognize the 
responsibilities that national heritage designation will bring. 
I am here to tell you that the good people of Venango County 
will cherish and honor those responsibilities.
    The region already enjoys heritage park designation from 
the Commonwealth of Pennsylvania, and for more than a decade, 
countless numbers of volunteers, innumerable hours, and 
hundreds of thousands of private dollars have been contributed 
to this effort.
    I note and concur with the Committee's concern regarding 
private property rights. I would call your attention to a 
letter of support offered by the Pennsylvania Independent 
Petroleum Producers who are supporting our efforts, who 
indicate their concern about private property rights as it 
effects the future of their livelihood. Private property rights 
are part of the very heritage I am asking you to recognize with 
this designation. You will note that H.R. 1862 explicitly 
prohibits the use of Federal dollars for land acquisition by 
the Oil Heritage Region, Inc.
    The Oil Heritage Region requires no land acquisition and 
will capitalize on public holdings of a 9,000 acre State park, 
a Drake well museum, which is operated by the Pennsylvania 
Museum Commission, a 2,700 acre county park, and a host of 
State game lands and forests.
    The tireless professional planning and management, 
including an appreciation for private property rights of the 
region, have been a hallmark of the success of this region to 
date. Furthermore, the elected officials of the region 
recognize our responsibility to partner in this effort.
    Recently, the Venango County Board of Commissioners 
appropriated $50,000 to facilitate a current update of the Oil 
Heritage Region's management action plan. Additionally, I have 
proposed to the Board of Commissioners that we appropriate an 
additional $250,000 for feasibility analysis and preplanning 
for the development of an ``Oil Boomtown'' to replicate one of 
the many small towns that sprang up overnight with the 
discovery of oil in our valley. It is my hope that attractions 
and amenities such as this can be developed for education, 
entertainment, and recreation.
    It is also noteworthy that the Board of Commissioners has 
enacted a 3-percent hotel room tax to help fund the promotion 
and development of the travel industry in Venango County. 
Related revenues now exceed $100,000 per year.
    The Oil Heritage Region is ready, willing and able to 
become a National Heritage Region. On behalf of the people of 
Venango County and our neighbors in Crawford County, I 
respectfully submit that the birth of the oil industry was a 
world-changing event. I respectfully submit that the oil 
industry continues to influence world affairs. I respectfully 
submit that the people of Venango and Crawford Counties have 
demonstrated the passion, capacity and stewardship to manage 
the responsibilities of national designation. We do, and will 
continue to preserve oil artifacts, welcome our visitors, 
sustain the natural resources, encourage entrepreneurs, and 
share our stories with guests of all ages.
    I respectfully submit that the events that happened in the 
oil heritage region, and the people who live there, are worthy 
of recognition and support by the Congress of the United States 
of America. I humbly ask for your support by designating the 
Oil Region National Heritage Area.
    Thank you.
    [The prepared statement of Robert Murray follows:]

      Statement of Bob Murray, Chairman, Board of Commissioners, 
               County of Venango, Franklin, Pennsylvania

    Mr. Chairman, Members of Congress, Committee Staff, Media, and 
Guests:
    My name is Bob Murray and I currently serve as Chairman of the 
Board of Commissioners in Venango County, Pennsylvania. On behalf of 
the good people of Venango County, I bring greetings and a sincere 
appreciation for this opportunity to speak with you today about ``The 
Valley That Changed the World.'' In a moment, you'll hear about the 
geography and the compelling history of the Oil Heritage Region. But 
first, you ought to know about the people of the world's first oil 
patch. We are the proud sons and daughters of the Teamsters, the 
Steelworkers, the Coopers, the Drillers, and the Roughnecks of the Oil 
Industry. Our forefathers devised and built innovative transportation 
systems, financial institutions, commodity exchanges, manufacturing 
plants, and oil refineries.
    Today, with much of the oil now depleted, production is minimal. We 
are attempting to diversify, modernize, and grow our economy, but the 
economic boom of the 1990's never quite made it to Venango County and 
the last remnants of the big oil companies that were founded there--
household names like Quaker State and Pennzoil--are now gone from our 
local economy. But the oil industry that was born in Venango County 
continues to heavily influence the world economy and world events. Oil 
plays a significant role in our nation's history, our nation's way of 
life, our nation's position in the world, and oil will continue to 
influence America and the world for decades to come.
    Today, the oil patch is a lush, green, beautiful valley with an 
abundance of natural beauty. Its rivers, forests, and lakes make it 
attractive to visitors. The compelling history of the Oil Region 
combined with the raw beauty of our mountains, positions Venango County 
and eastern Crawford County to take special advantage of a National 
Heritage Designation.
    Today oil fuels the pride, the nostalgia, and the enthusiasm we in 
Venango County have for the oil patch. We recognize the 
responsibilities that National Heritage designation will bring. I am 
here to tell you that the good people of Venango County will cherish 
and honor those responsibilities. The region already enjoys Heritage 
Park designation from the Commonwealth of Pennsylvania. For more than a 
decade, countless numbers of volunteers, innumerable hours, and 
hundreds of thousands of private dollars have been contributed to this 
effort.
    Tireless, professional planning and management of the region have 
been a hallmark of its success to date.
    Furthermore, the elected officials of the region recognize our 
responsibility to partner in this effort. Recently, the Venango County 
Board of Commissioners has granted $50,000 to facilitate a current 
update of the Oil Heritage Region's Management Action Plan. 
Additionally, I have proposed to the Board of Commissioners that we 
appropriate an additional $250,000 for feasibility analysis and pre-
planning for the development of an ``Oil Boomtown'' to replicate one of 
the many small towns the sprang up overnight with the discovery of oil 
in our valley. It is my hope that attractions and amenities such as 
this can be developed for education, entertainment, and recreation.
    It is also noteworthy that the Board of Commissioners has enacted a 
3% hotel room tax to help fund the promotion and development of the 
travel industry in Venango County. Related revenues now exceed $100,000 
per year.
    The Oil Heritage Region is ready, willing, and able to become a 
National Heritage Region. On behalf of the people of Venango County and 
our neighbors in Crawford County, I respectfully submit that the birth 
of the oil industry was a world changing event. I respectfully submit 
that the Oil Industry continues to influence world affairs. I 
respectfully submit that the people of Venango and Crawford Counties, 
Pennsylvania have demonstrated the passion, capacity, and stewardship 
to manage the responsibilities of National Heritage Designation. We do 
and will continue to preserve the oil artifacts, welcome our visitors, 
sustain the natural resources, encourage entrepreneurs, and share our 
stories with guests of all ages.
    I respectfully submit that the events that happened in the Oil 
Heritage Region--and the people who live there--are worthy of 
recognition and support by the Congress of the United States of 
America. And I humbly ask for your support by designating the Oil 
Region National Heritage Area.
                                 ______
                                 
    Mr. Radanovich. Thank you for your testimony, Mr. Murray.
    Next up is Ms. Roxanne Hitchcock. Welcome to the Committee. 
Miss Hitchcock is here to speak on H.R. 1862 as well. You may 
begin your testimony.

         STATEMENT OF ROXANNE HITCHCOCK, BOARD MEMBER, 
       OIL HERITAGE REGION, INC., OIL CITY, PENNSYLVANIA

    Ms. Hitchcock. Thank you, Mr. Chairman, members of the 
Committee. My name is Roxanne Hitchcock. I own Oil Region Books 
and have, since 1999, served as a member of the board of 
directors for the Oil Heritage Region, Inc. I am very pleased 
to have the opportunity to present testimony to you in favor of 
the proposed oil region National Heritage Act, H.R. 1862.
    It began with a discovery in the wilderness of northwestern 
Pennsylvania. Little do we realize 144 years later the impact 
the discovery of oil has on the American people. Today, the 
very structure of our society is dependent upon petroleum. What 
began as a small enterprise on August 27, 1859, with the 
drilling of the first commercial well for oil, just outside 
Titusville, Pennsylvania, in Venango County, would catapult 
American industrialism into the spotlight. In the search for a 
better illuminate, these pioneer entrepreneurs began an 
industry that forever changed civilization.
    The oil region became a catalyst luring people to try to 
make their fortune. Some did, others did not. Many stayed and 
started a life that has been passed down from generation to 
generation. With the end of the Civil War, there was an influx 
of soldiers looking for adventure and a higher wage. Immigrants 
came looking for a better way of life for their families.
    Capitalism reigned with John D. Rockefeller, Andrew 
Carnegie, J.P. Morgan and others developing the largest 
industries and companies in the world, some of which still 
exist today. By 1900, Standard Oil supplied 95 percent of every 
petroleum product to the railroad industry, for example.
    The oil industry evolved with the needs of the American 
people. As electric incandescent lighting became available, the 
need for kerosene declined. The advent of the automobile 
created a need that only the oil industry could supply. What 
was formally a by-product of petroleum became one of our most 
precious commodities today.
    The story of oil, it's history, development, transition and 
cultural impact is important and must be shared. The National 
Heritage Area designation would accelerate a stream of 
development into the Oil Heritage Region.
    Many small businesses would benefit and others would start 
new related ventures. The Oil Heritage Region, Inc. is 
committed to and has the capability to fulfill the 
responsibilities as a National Heritage Area.
    The information packets and display boards before you 
illustrate the geography of the Oil Heritage Region, which 
encompasses Venango County and the City of Titusville and Oil 
Creek Township in eastern Crawford County in Pennsylvania. You 
also see the front covers of the series of carefully prepared, 
community-generated, consensus-based plans that have led us to 
the stage of seeking not only the Pennsylvania Heritage Park 
designation which we have held since 1994, but also National 
Heritage Area designation.
    Those include the approved feasibility study in 1991, the 
management action plan in 1994, Oil Region Interpretive 
Prospectus/Plan in 1998--you have that in your packets--and the 
strategic marketing plan in 2000. We are currently updating the 
old Heritage Region Management Action Plan to address the 
anticipated role of the National Park Service, and our 
responsibilities as an active National Heritage Area.
    Your packets also include many letters of endorsement and 
encouragement for the Oil Region National Heritage Area 
designation. In addition, there is a letter from Pennsylvania 
Governor Edward Rendell.
    You will find correspondence and resolutions from many 
entities, which range from environmental groups to industry 
representatives, to elected officials, to service organizations 
and businesses. These letters clearly illustrate the broad-
based local and regional support for Federal designation as the 
Oil Region National Heritage Area.
    Thank you.
    [The prepared statement of Roxanne Hitchcock follows:]

      Statement of Roxanne Hitchcock, Member, Board of Directors, 
         Oil Heritage Region Inc., and Owner, Oil Region Books

    Chairman Pombo, Members of Congress, Committee Staff, Media and 
Guests:
    My name is Roxanne Hitchcock. I own Oil Region Books and have, 
since 1999, served as a member of the Board of Directors for the Oil 
Heritage Region Inc. I am pleased to have the opportunity to present 
testimony to you in favor of the proposed Oil Region National Heritage 
Area Act, H.R. 1862.
    It began with a discovery in the wilderness of northwestern 
Pennsylvania. Little do we realize 144 years later the impact the 
discovery of oil has on the American people. Today, the very structure 
of our society is dependent on petroleum.
    What began as a small enterprise on August 27, 1859, with the 
drilling of the first commercial well for oil, just outside Titusville, 
Pennsylvania, in Venango County, would catapult American Industrialism 
into the spotlight. In the search for a better illuminate, these 
pioneer entrepreneurs began an industry that forever changed 
civilization.
    The Oil Region became a catalyst luring people to try and make 
their fortunes. Some did; others did not. Many stayed and started a 
life that has been passed down from generation to generation. With the 
end of the Civil War, there was an influx of soldiers looking for 
adventure and a higher wage. Immigrants came looking for a better way 
of life for their families.
    Capitalism reigned with John D. Rockefeller, Andrew Carnegie, J. P. 
Morgan and others developing the largest industries and companies in 
the world, some of which still exist today. By 1900, Standard Oil 
supplied 95% of every petroleum product to the Railroad Industry, for 
example.
    The Oil Industry evolved with the needs of the American people. As 
electric incandescent lighting became available, the need for kerosene 
declined. The advent of the automobile created a need that only the Oil 
Industry could supply. What was formally a byproduct of petroleum 
became one of our precious commodities today.
    The story of oil, its history, development, transition and cultural 
impact is important and must be shared. The National Heritage Area 
designation would accelerate a stream of development into the Oil 
Heritage Region. Many small business owners would benefit and others 
would start new related ventures. The Oil Heritage Region Inc. is 
committed to and has the capability to fulfill the responsibilities as 
a National Heritage Area.
    The information packets and the display boards before you 
illustrate the geography of the Oil Heritage Region, which encompasses 
Venango County and the City of Titusville and Oil Creek Township in 
eastern Crawford County in Pennsylvania. You also see the front covers 
of the series of carefully prepared, community-generated, consensus-
based plans that have led us to the stage of seeking not only the 
Pennsylvania Heritage Park designation which we have held since 1994, 
but also National Heritage Area designation. Those include the approved 
Feasibility Study in 1991, Management Action Plan in 1994, Oil Region 
Interpretive Prospectus/Plan in 1998 (a summary of which is contained 
in your packets), and the Strategic Marketing Plan in 2000. We are 
currently updating the OHR Management Action Plan to address the 
anticipated role of the National Park Service, and our responsibilities 
as an active National Heritage Area.
    Your packets also include letters of endorsement and encouragement 
for the Oil Region National Heritage Area Designation. In addition to a 
letter from Pennsylvania Governor Edward Rendell, you'll find 
correspondence and resolutions from the following entities, which range 
from environmental groups to industry representatives to elected 
officials to service organizations and businesses: Allegheny Valley 
Trails Association; City of Franklin; City of Titusville; Clarion/
Venango Educational Resources Alliance; County of Crawford; County of 
Venango; Cultural and Educational Committee for the Oil Heritage Region 
Inc.; ``The Derrick'' newspapers; Joint Legislative Committee on Air 
and Water Pollution Control and Conservation Committee of the 
Pennsylvania Legislature; the Pa. Independent Petroleum Producers; 
Northwest Pa. Regional Planning & Development Commission; Oil Creek 
Railway Historical Society, Inc.; Pa. Department of Conservation and 
Natural Resources; Oil Creek State Park; Pa. Department of 
Environmental Protection; Pa. Environmental Council; Pa. Historical and 
Museum Commission; Senator Robert D. Robbins; Titusville Area Chamber 
of Commerce; Titusville Historical Society; Venango County Historical 
Society; Venango County Planning Commission; Venango Economic 
Development Corporation; Dillon Wescoat; Western Pennsylvania 
Conservancy; and Senator Mary Jo White. These letters clearly 
illustrate the broad-based local and regional support for a federal 
designation as the Oil Region National Heritage Area.
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Hitchcock. We appreciate 
your testimony.
    Next is Mr. Peyton Knight, who is here to speak on four of 
these bills, H.R. 280, 1618, 1594, and 1862. Mr. Knight, 
welcome to the Committee. You may begin.

 STATEMENT OF J. PEYTON KNIGHT, LEGISLATIVE DIRECTOR, AMERICAN 
               POLICY CENTER, WARRENTON, VIRGINIA

    Mr. Knight. Thank you, Mr. Chairman, and members of the 
Subcommittee, and thanks for the opportunity to appear before 
you today on behalf of property rights advocates across the 
country who are concerned with the impact of National Heritage 
Areas on land use, private property rights, and local 
communities.
    One of the biggest problems that both residential and 
commercial property owners face with Heritage Areas is that 
they effectively lead to restrictive Federal zoning and land 
use planning. Funding and technical assistance for Heritage 
Areas is administered through the National Park Service, a 
Federal agency with a history of hostility toward private 
landowners. The recipient of these funds and NPS direction is a 
management entity, which typically consists of strictly 
ideological special interest groups and local government 
officials. This conglomerate then works to impose its narrow 
vision of land use planning on the unsuspecting landowners 
within the Heritage Area's boundaries. The result is a top-down 
approach to local zoning, with little or no involvement from 
the local property owners most affected.
    Proponents of heritage areas present them as innocuous 
designations, bestowed upon local communities in an attempt to 
preserve, interpret and celebrate the cultural and historic 
significance of a particular area. Incredibly, they argue that, 
despite this mission of preservation, heritage areas do not 
influence zoning or land use planning. Yet, by definition, this 
is precisely what they do. Heritage areas have boundaries, and 
these boundaries have consequences for the property owners 
within them.
    For example, both the National Aviation and the Arabia 
Mountain National Heritage Area Acts specifically direct the 
management entity to ``encourage local governments to adopt 
land use policies consistent with the management of the 
Heritage Area and the goals of the management plan.'' This can 
be construed as nothing less than a top-down, Federal zoning 
mandate.
    In the Oil Region National Heritage Area Act, section 5(b)5 
calls for creating an ``inventory of the resources contained in 
the Heritage Area, including a list of any property in the 
Heritage Area that is related to the themes of the Heritage 
Area and that should be preserved, restored, managed, 
developed, or maintained because of its natural, cultural, 
historic, recreational, or scenic significance.'' Thus, 
landowners are subject to the whimsical interpretations of the 
preservation-driven management entity. Should their property be 
deemed significant in any way to the Heritage Area, you can bet 
that its use will be strictly curtailed. Again, this is a 
Federal zoning mandate.
    In the past, Federal funds have even been dangled as a 
``carrot'', while the stick of zoning and land use restrictions 
were firmly applied. When the Augusta Canal National Heritage 
Area in Georgia was in its developmental stages in 1994, the 
National Park Service refused to accept the management plan put 
forth by the Planning Committee until they agreed to succumb to 
the Park Service's vision of zoning. That testimony is included 
in my written submission.
    Property rights and limited government advocates are also 
concerned that National Heritage Areas will effectively become 
a feeder program for a ravenous national parks system. These 
fears are well founded. The Rivers of Steel National Heritage 
Area in southwestern Pennsylvania states boldly on its website: 
``Rivers of Steel is spearheading a drive to create a national 
park on 38 acres of original mill site. Bills have been 
introduced before the U.S. Congress to make this urban national 
park a reality.''
    Thus, here is an example of a National Heritage Area, 
funded and guided by the National Park Service, taking the 
initiative in lobbying Congress for land acquisition authority 
and the creation of yet another national park. It hardly 
appears that Heritage Areas and National Parks are strictly 
dichotomous.
    It is also worthwhile to note that these Heritage Areas are 
coming at a time when Federal funding is becoming increasingly 
scarce and the Park Service faces a multi-billion dollar 
maintenance backlog.
    If any of these proposed Heritage Areas eventually do come 
to fruition, and property rights advocates sincerely hope that 
they do not, it is morally imperative that landowner 
notification be included in the procedure. Each and every 
property owner within the boundaries of a proposed Heritage 
Area should be notified on an individual basis, and given the 
opportunity to opt into the designation. This is far more than 
merely a common courtesy to landowners. It is the only way to 
truly gauge the interest level of the local population--
something that Heritage Area advocates claim is a prerequisite 
for designation in the first place. Anything short of this type 
of notification is wholly insufficient, yet proponents of 
Heritage Areas consistently shun this most common sense action.
    In conclusion, the Heritage Areas program should not be 
allowed to proliferate. Experience shows that it will not only 
become a funding albatross, as more and more interest groups 
gather around the Federal trough, but also a program that 
quashes property rights and local economies through restrictive 
Federal zoning practices. The real beneficiaries of National 
Heritage Areas are conservation groups, preservation societies, 
land trusts and the National Park Service, essentially 
organizations that are in constant pursuit of Federal dollars, 
land acquisition, and restrictions to development.
    True private property ownership lies in one's ability to do 
with his property as he wishes. Zoning and land use policies 
are local decisions to be made by locally elected officials who 
are directly accountable to the citizens they represent. 
National Heritage Areas corrupt this inherently local procedure 
by adding Federal dollars, Federal oversight, and Federal 
mandates to the mix. The result is a system with little or no 
accountability to those who are most affected by these 
decisions.
    Again, Mr. Chairman, thank you for inviting me to testify 
on this very important issue. I would welcome any questions you 
or anyone else have on this issue.
    [The prepared statement of J. Peyton Knight follows:]

         Statement of J. Peyton Knight, Legislative Director, 
                         American Policy Center

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today on the behalf of property rights 
advocates across the country who are concerned with the impact of 
National Heritage Areas on land use, private property rights and local 
communities.
    One of the biggest problems that both residential and commercial 
property owners face with Heritage Areas is that they effectively lead 
to restrictive federal zoning and land use planning. Funding and 
technical assistance for Heritage Areas is administered through the 
National Park Service, a federal agency with a history of hostility 
towards private landowners. The recipient of these funds and NPS 
direction is a management entity, which typically consists of strictly 
ideological special interest groups and local government officials. 
This conglomerate then works to impose its narrow vision of land use 
planning on the unsuspecting landowners within the Heritage Area's 
boundaries. The result is a top-down approach to local zoning, with 
little or no involvement from the local property owners most affected.
    Proponents of Heritage Areas present them as innocuous designations 
bestowed upon local communities in an attempt to preserve, interpret 
and celebrate the cultural and historic significance of a particular 
area. Incredibly, they argue that despite this mission of 
``preservation,'' Heritage Areas do not influence zoning or land use 
planning. Yet by definition this is precisely what they do. Heritage 
Areas have boundaries, and these boundaries have consequences for the 
property owners within them.
    For example, both the National Aviation and the Arabia Mountain 
National Heritage Area Acts specifically direct the management entity 
to ``encourage local governments to adopt land use policies consistent 
with the management of the Heritage Area and the goals of the 
Management Plan.'' This can be construed as nothing less than a top-
down, federal zoning mandate.
    In the Oil Region National Heritage Area Act, Section 5(b)5 calls 
for creating an ``inventory of the resources contained in the Heritage 
Area, including a list of any property in the Heritage Area that is 
related to the themes of the Heritage Area and that should be 
preserved, restored, managed, developed, or maintained because of its 
natural, cultural, historic, recreational, or scenic significance.'' 
Thus, landowners are subject to the whimsical interpretations of the 
preservation-driven management entity. Should their property be deemed 
``significant'' in any way to the Heritage Area, you can bet that its 
use will be strictly curtailed. Again, this is a federal zoning 
mandate.
    In the past, federal funds have even been dangled as a carrot, 
while the stick of zoning and land use restrictions were firmly 
applied. When the Augusta Canal National Heritage Area in Georgia was 
in its developmental stages in 1994, the National Park Service refused 
to accept the management plan put forth by the planning committee until 
they agreed to succumb to the Park Service's vision of zoning.
    Property rights and limited government advocates are also concerned 
that National Heritage Areas will effectively become a feeder program 
for a ravenous national parks program. These fears are well-founded.
    The Rivers of Steel National Heritage Area in southwestern 
Pennsylvania states boldly on its website:
        ``Rivers of Steel is spearheading a drive to create a national 
        park on 38 acres of original mill site...Bills have been 
        introduced before the U.S. Congress to make this urban national 
        park a reality.''
    Thus, here is an example of a National Heritage Area, funded and 
guided by the National Park Service, taking the initiative in lobbying 
Congress for land acquisition authority and the creation of yet another 
national park. It hardly appears that Heritage Areas and National Parks 
are strictly dichotomous.
    It is also worthwhile to note that these Heritage Areas are coming 
at a time when federal funding is becoming increasingly scarce and the 
Park Service faces a multibillion-dollar maintenance backlog.
    If any of these proposed Heritage Areas eventually do come to 
fruition, and property rights advocates sincerely hope that they do 
not, it is morally imperative that landowner notification be included 
in the procedure. Each and every property owner within the boundaries 
of a proposed Heritage Area should be notified on an individual basis, 
and given the opportunity to opt-in to the designation. This is far 
more than merely a common courtesy to landowners. It is the ONLY way to 
truly gauge the interest level of the local population--something that 
Heritage Area advocates claim is a prerequisite for designation in the 
first place. Anything short of this type of notification is wholly 
insufficient, yet proponents of Heritage Areas consistently shun this 
most common sense action.
    In conclusion, the Heritage Areas program should not be allowed to 
proliferate. Experience shows that it will not only become a funding 
albatross, as more and more interest groups gather around the federal 
trough, but also a program that quashes property rights and local 
economies through restrictive federal zoning practices. The real 
beneficiaries of a National Heritage Areas program are conservation 
groups, preservation societies, land trusts and the National Park 
Service--essentially, organizations that are in constant pursuit of 
federal dollars, land acquisition and restrictions to development.
    True private property ownership lies in one's ability to do with 
his property as he wishes. Zoning and land use policies are local 
decisions to be made by locally elected officials who are directly 
accountable to the citizens they represent. National Heritage Areas 
corrupt this inherently local procedure by adding federal dollars, 
federal oversight, and federal mandates to the mix. The result is a 
system with little or no accountability to those who are most affected 
by these decisions.
    Again, Mr. Chairman, thank you for inviting me to testify on this 
very important issue. I would be happy to answer any questions that 
you, or other members of the Subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Knight. I appreciate your 
testimony.
    Next up is Mr. Daniel Clifton, here to speak on the bills 
as well. Mr. Clifton, welcome to the Committee. You may begin.

STATEMENT OF DANIEL CLIFTON, FEDERAL AFFAIRS MANAGER, AMERICANS 
                FOR TAX REFORM, WASHINGTON, D.C.

    Mr. Clifton. Great. Thank you, Mr. Chairman, for allowing 
me to speak today, and to members of the Subcommittee.
    I would also like to thank the sponsors of the bills and 
the people who have come here to testify. It is my belief that 
their intentions are well-placed. However, I want to take a 
little bit different route and speak more on the budget and the 
economics of this proposal, something that has not been 
discussed throughout this hearing so far.
    Essentially, our budget problem in this country is now at 
about $480 billion in Fiscal Year 2004. As somebody who 
constantly researches both Federal budgets and State and local 
budgets, something started to change in about 1998 and this 
Congress just could not say no to any new spending program. 
Here we are, continually saying ``approve my National Heritage 
site''. Each one is a good program on its merits, but 
essentially we are now coming to a point where each program is 
becoming one large program. There have been numbers thrown out 
that there's 23 approved, 46 in the pipeline, and it's becoming 
a very costly Federal Government program that, over time, is 
going to continue to expand and require more and more money 
from an already overstretched National Park Service.
    As such, the National Heritage Area has all the dynamics of 
becoming an exploding Federal Government program which 
threatens the long-term fiscal stability of the Federal budget. 
Let's be real. Once this program is established, the program 
will become permanent and more localities will develop reasons 
for their areas to be designated.
    One example. I was born in Edison, NJ. It's called Edison, 
NJ because that's where Thomas Edison created the light bulb. 
To me, that has national significance. Every town across the 
country is going to find a reason to have national significance 
and come here and place this pressure on American taxpayers. 
Organized local government officials and special interests will 
continue to lobby for the program, to continue receiving more 
Federal funding. With more requests coming in, more money will 
be required, and more money maybe to create a National Park 
Service, as the speaker before me alluded to.
    This comes on top of the National Park Service burden for 
their maintenance backlog. All this will require higher taxes 
on working American families. At some point we have to just say 
no, on not just this program, but a lot of other programs 
coming through these Committees.
    At the same time this money is spent on the programs, what 
is the benefit? It is my belief that the costs far exceed any 
benefits derived from the new program. Local zoning 
restrictions will work to take property from rightful owners, 
while restricting economic growth in these communities. This 
occurs to benefit noncommunity residents who seek to profit off 
of American taxpayers and take property from existing 
residents.
    Under any analysis, it is clear that Congress should not 
move forward with this initiative.
    Mr. Chairman, I thank you for inviting me to testify on 
this very important issue, and I would be happy to answer any 
questions that you or other members of the Subcommittee may 
have. Thank you for your time.
    [The prepared statement of Daniel Clifton follows:]

       Statement of Daniel M. Clifton, Federal Affairs Manager, 
                        Americans for Tax Reform

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today on the behalf of taxpayers. As 
you may know, Americans for Tax Reform (ATR) is a broad coalition of 
taxpayers and taxpayer groups from across the country committed to free 
markets, lower taxes, less regulations and smaller government.
    As a matter of background, each year, ATR issues a report entitled 
Cost of Government Day, which calculates the day of the year the 
average American is done working for total government spending and 
regulations. For 2003, the average American needed to work more than 
half the year, until July 11th to pay for the costs imposed by 
government. This was an increase of 5 days from last year, driven by 
federal spending and regulations. All told, the average American needs 
to work 87 days out of the year to pay for federal spending in 2003, an 
increase of 10 days from the year 2000.
    At the same time as spending has been increasing, in 2003, the 
average American will have to work 63 days out of the year to pay for 
all regulations, which is an increase of nearly one day over 2002 and 
five additional days than was required in 2000. In total, the average 
American has worked a cumulative total of 10.1 additional days to pay 
for the substantial increases in regulations since 2000.
    So with the federal government expanding 20 percent faster than the 
growth of working families' incomes since 2000 and the country fighting 
a War on Terrorism, the federal government should not be creating new 
spending and regulatory programs, such as National Heritage Areas.
    Just last month, the Congressional Budget Office (CBO) estimated 
the Fiscal Year 2004 budget deficit to be $480 billion due to increased 
spending and a slower economy. Signs are pointing upward for an 
economic rebound for the remainder of the year and into 2004, but 
without spending restraint the country will never dig itself out of the 
budget hole.
    If spending had been held to the rate of national income growth 
over the previous three years, the federal deficit would be just $70 
billion, 4.5 times smaller than the actual projected 2003 deficit. In 
fact, the $70 billion deficit would reflect the slowdown of the economy 
and the lost capital gains revenue stemming from the stock market's $7 
trillion lost of value since March 2000. Expected faster economic 
growth at the end of this year and into 2004 would have put the country 
back into surpluses if spending had been restrained.
    The National Heritage Area proposal has all the dynamics to become 
an exploding federal government program, which threatens long-term 
fiscal stability of the federal budget. Let's be real, once this 
program is established, the program will become permanent and more 
localities will develop reasons for their areas to be designated. 
Organized local government officials and special interests will 
continue to lobby for the program to continue and thus require more 
federal funding. With more requests coming in, more money will be 
required, AND more money for maintenance will be needed. This comes on 
top of a National Park Service burden that is already facing a multi-
billion dollar maintenance backlog. All this will require higher taxes 
on working American families at some point and ATR vigorously opposes 
this proposal.
    At the same time this money is spent on the programs, what is the 
benefit? It is my belief that the costs far exceed any benefits derived 
from the new program. Local zoning restrictions will work to take 
property from rightful owners, while restricting economic growth in 
these communities. This occurs to benefit non-community residents who 
seek to profit off of American taxpayers and take property from 
existing residents.
    Under any analysis, it is clear that Congress should not move 
forward with this initiative.
    Mr. Chairman, thank you for inviting me to testify on this very 
important issue. I would be happy to answer any questions that you, or 
other members of the Subcommittee, may have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Clifton. I appreciate your 
testimony.
    I recognize Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman. I will ask 
perhaps two questions, and then see if some other members of 
the panel would like to respond to the testimony of the last 
two witnesses.
    My first question is to Mr. Knight. According to testimony 
provided by the Bush Administration before the Senate in March, 
the Heritage Area program has now been around for about 20 
years, and the 23 areas that have been established. I can't 
find any record that there are around 40 or so in the pipeline. 
I don't have a specific number.
    The concern that I read in your testimony is about property 
rights, Mr. Knight. Can you provide any specific court cases, 
either pending or resolved, dealing with the property rights 
issue within an existing National Heritage Area?
    Mr. Knight. Court cases, no. It's in the opinion of 
property rights advocates and landowners, the ones I have 
spoken with and who are members of our particular organization, 
that they don't really know of their National Heritage Areas or 
whether or not they're within the boundaries of National 
Heritage Areas and that they are, in fact, are.
    Because the program is so young and because it takes such a 
long time for victims of land-use designations or zoning 
restrictions to come forward, they simply haven't surfaced yet.
    Mrs. Christensen. So there aren't any?
    Mr. Knight. No. Frankly, no.
    Mrs. Christensen. There are about 45 million people in 17 
States that live in National Heritage Areas, and the program 
has been in existence for about 20 years now.
    Mr. Knight. One particularly interesting scenario is what's 
going on in Utah right now with the National Mormon Pioneer 
Heritage Area. I believe it's sponsored by Senator Bennett. 
There is a local grassroots coalition gathering out there, 
simply trying to figure out what the heritage area designation 
means, and finding out what it means, they don't want it. 
They're essentially fighting it right now. Meanwhile, the folks 
on the Planning Committee, who claim that they have local 
involvement and locals behind the initiative, it's turning out 
simply to not be true.
    I guess I would ask the question, how do we determine 
whether this is a ``top down'' initiative, started by special 
interests, local government officials and Federal Government 
officials and the Park Service, or whether this is truly a 
program where locals gathered together at the local level and 
chose some sort of--
    Mrs. Christensen. I would doubt that there's any case in 
which the National Park Service has gone to the community and 
said, ``We want you to be a National Heritage Area.'' These 
requests for the studies come from the communities. They are 
managed under a community-developed organization. I would 
suggest that the people in Utah, if there's a designation 
already there--there isn't one?
    Mr. Knight. It's a proposed designation.
    Mrs. Christensen. There is no designation.
    I want to allow the other members of the panel to say 
something. I would suggest that the budget issues don't quite 
apply here, either. In testimony before the Senate in March, 
also the Bush Administration is on record in support of 
preserving the areas that have a strong cultural and historical 
value in the country. But they reported that for Fiscal Year 
2003, the total amount allocated for heritage areas is just 
over $14 million. Given that the Federal budget is in the $1.5 
trillion range annually, I think that's a fairly modest 
expenditure.
    But, beyond that, the Bush Administration also argues that, 
since 1985, this investment of $107 million has leveraged 
nearly $1 billion in non-National Park Service partnership 
funds, from a wide variety of other services. That comes out to 
a match of one Park Service dollar to 8.7 other dollars. I 
don't think there are any other Federal programs that can match 
those ratios.
    Do you have any, Mr. Clifton?
    Mr. Clifton. If I can just kind of take all that one step 
at a time. There was a lot of information thrown out there.
    I think you're absolutely correct, $14 million within a 
$2.3 trillion budget that we'll have this year. This is part of 
a much larger problem. This has been localized to my community. 
But as representatives, you both have to take care of your 
constituents and the country at large. We keep saying, ``My 
program does not apply; it is only x-amount.'' When we add up 
all those programs, we continue to spend.
    Let me give you an example. In 2000, the average taxpayer 
had to work 77 days out of the year to pay off the actual cost 
of Federal spending. Today--
    Mrs. Christensen. I thought we were just talking about the 
National Heritage Areas.
    Mr. Clifton. I'm getting to that. I'm just trying to give a 
broader picture and then I'll get right to it.
    Today, it's 87 days. So in 3 years, we have increased 
spending so much that the average American has to work ten more 
days. And it didn't come from one big program. It came from all 
these little programs and a continuing increase.
    Now, just because it's $14 million this year doesn't mean 
it's going to be $14 million next year. We're about to approve 
four more, and we've got another 43 in the pipeline. There is 
going to be added costs. Once this program comes in, ``well, we 
need x-amount of dollars for this.'' That's a big concern of 
ours, not just this program, but all programs coming through. 
At some point Congress has to say, ``Let's stop spending.'' We 
have a $500 billion deficit. That's point one.
    Point two, on the leveraging. What we have seen from some 
of these testimonies today is that there are already State 
designations without the Federal designations. State 
governments can do this program. Like you said, $14 million is 
not a lot of money. You know, if we split that among all the 
different sites, it's not going to add much of a burden to 
them. Really, does the Federal Government have a responsibility 
to do this? That's the question that needs to be answered. 
Americans for Tax Reform believes the answer is ``no.''
    Mrs. Christensen. At least on my side we strongly disagree 
with you, that there are some treasures in this country that 
need to be preserved and protected and need to play a role in 
the economic development of the communities, so that 
communities can stand on their own. I think this is a very 
small investment for the benefits that accrue to the 
communities involved.
    Mr. Clifton. If I can make one comment--OK.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I now recognize Miss Majette for any questions you might 
have of the Committee. None for you?
    Ms. Majette. No.
    Mr. Radanovich. Ms. Bordallo?
    Ms. Bordallo. No.
    Mr. Radanovich. Any other questions of the guest speakers 
today? Gosh, I thought we were going to go on a little longer 
on this.
    OK, great. Thank you very much everybody for your 
testimony. I appreciate your being here.
    Ms. Majette. I'm sorry. Excuse me, Mr. Chairman. You had 
asked earlier about the area, I guess the physical boundaries 
of the area--
    Mr. Radanovich. As it was, it didn't seem to be clearly 
represented on the map that you had shown.
    Ms. Majette. Would Mr. Jordan be able to get up and show 
you where that is?
    Mr. Radanovich. Sure, if you would like.
    Mr. Jordan. Thank you, Congressman. Actually, I don't need 
to get up and go over there.
    The aerial photograph that you see represented by that 
print, it roughly corresponds to the proposed heritage area 
boundary. In our heritage area study, which we completed with 
our own funds, which is posted on our website for all of you to 
see, ArabiaAlliance.org, the proposed boundary is indicated on 
that website exactly.
    I want to emphasize that we did what the Park Service 
considers the preliminary study. We have now a $250,000 master 
study underway, which we're also funding ourselves, which will 
identify perhaps a slightly more precise boundary than the 
initial boundary. But that picture that you're looking at there 
represents fairly roughly the entire area.
    Mr. Radanovich. Very good. I appreciate that.
    Ms. Bordallo.
    Ms. Bordallo. Mr. Chairman, first I apologize for coming in 
late. I understand that Representative Christensen did speak on 
her measure. I would like to add a few statements, since we are 
sister territories.
    I want to thank Representative Christensen for her 
leadership as the Ranking Member of this Subcommittee first. I 
strongly support this legislation.
    Mr. Chairman, the insular areas should not be overlooked in 
any national policy. We have a role to play, and I'm pleased 
that the National Park System includes units in the 
territories. However, there is much more that should be studied 
for inclusion.
    I have been to St. Croix many times. It offers rich and 
historic resources and architectural treasures that are no 
doubt worthy of recognition and preservation. I would be remiss 
if it didn't say so does the Territory of Guam.
    Thank you very much, Mr. Chairman.
    Mr. Radanovich. Thank you, Ms. Bordallo.
    Are there any other questions of the folks who have 
testified before us today? If not, this hearing is adjourned. 
Thank you very much.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by The Honorable John 
A. Boehner, a Representative in Congress from the State of 
Ohio, on H.R. 280 follows:]

    Statement of The Honorable John A. Boehner, a Representative in 
                    Congress from the State of Ohio

    Mr. Chairman: I appreciate this opportunity to express my support 
for H.R. 280, the National Aviation Heritage Area Act. This legislation 
provides a management framework to preserve and promote Ohio's aviation 
heritage.
    In 2003, the 100th Anniversary of Powered Flight, Ohioans have come 
together in unprecedented ways to celebrate, preserve, and promote the 
dream of Wilbur and Orville Wright. I can think of no better tribute to 
their efforts than to establish this heritage area, and I am proud to 
be an original cosponsor of this legislation.
    When Deputy Assistant Secretary Paul Hoffman testified before the 
Senate Committee on Energy and Natural Resources concerning the 
National Park Service's National Heritage Area Program, he stated that 
to be successful ``all heritage area initiatives must be developed and 
shaped by local people and by local initiative.'' He further argued 
that heritage areas ``should tell nationally important stories through 
a regionally distinctive combination of natural, cultural, historic, 
and recreational resources.'' When one takes into account the 
cumulative efforts the citizens of the Miami Valley have taken to 
preserve their aviation heritage, it is easy to see the natural 
inclusion of the National Aviation Heritage Area into the National Park 
Service Heritage Area Program.
    The core of this heritage area--Montgomery, Miami, Greene, Warren, 
Clark, and Champaign counties in Southwest Ohio--have long been 
dedicated to the dedication of Ohioans to the preservation and 
advancement of powered flight. I am particularly impressed with the 
work of my constituents in Miami and Montgomery counties. From military 
to scientific to recreational pursuits, Southwest Ohio has led the way 
in aviation technology.
    Consider Wright Patterson Air Force Base: the birthplace, home, and 
future of aerospace. Originally, Wright Patterson was the site where 
much of the United States' military applications to aviation were 
developed. Today, Wright Patterson houses the Air Force's major weapons 
acquisition center. The base is home to premier scientists and 
engineers whose work continues to assure the United States Air Force's 
aerospace dominance.
    Wright Patterson is also home to the United States Air Force 
Museum, where a dedicated staff opens the public's imagination to the 
dream of aerospace through the preservation of the technology's past.
    In Cleveland, Ohio, NASA Glenn Research Center has been at the 
forefront in establishing some of the most sophisticated scientific 
discoveries for our civil aerospace program. Thanks to NASA Glenn and 
Wright Patterson, the State of Ohio has one of the largest and most 
diverse aerospace industries in the country.
    However, it is not just the public sector working to advance 
aerospace. The Miami Valley has been fortunate to have numerous 
dedicated individuals and organizations who work to provide an 
educational and recreational preservation of the area's aviation 
heritage.
    Based on the testimony provided by Mr. Hobson, the Committee is 
well aware of the efforts taken by Southwest Ohioans to preserve and 
promote their aviation legacy. A logical question is, ``Why is 
establishing a federal aviation heritage area necessary?'' 
Fundamentally, the goal of any heritage area is to provide a link among 
geographically close, thematic historical sites. The National Aviation 
Heritage Area will provide an organizing structure around which these 
disparate aviation heritage entities can collaborate and coordinate.
    I appreciate the time this Subcommittee has dedicated to this 
important issue, and I especially appreciate all the time and effort 
Mr. Hobson and his staff have put into promoting the Miami Valley's 
aviation heritage. I also appreciate the work Mr. Turner, Mr. DeWine, 
and Mr. Voinovich have done on this issue and for the overwhelming 
support the Miami Valley has received from the Ohio delegation. I look 
forward to working with my colleagues on this issue, and again, I thank 
you for this opportunity to showcase this exciting movement happening 
in Ohio.


</pre></body></html>
